                                                                                                  Vol. 78                           Friday,
                                                                                                  No. 249                           December 27, 2013




                                                                                                  Part III


                                                                                                  Department of Health and Human Services
                                                                                                  Office of Inspector General
                                                                                                  42 CFR Part 1001
                                                                                                  Medicare and State Health Care Programs: Fraud and Abuse; Electronic
                                                                                                  Health Records Safe Harbor Under the Anti-Kickback Statute; Final Rule
sroberts on DSK5SPTVN1PROD with RULES




                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00001   Fmt 4717   Sfmt 4717   E:\FR\FM\27DER2.SGM   27DER2
                                             79202                Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations

                                             DEPARTMENT OF HEALTH AND                                   business practices and technologies in                this final rule, to continue to facilitate
                                             HUMAN SERVICES                                             the health care industry. In accordance               the adoption of electronic health records
                                                                                                        with this authority, OIG published a                  technology.
                                             Office of Inspector General                                safe harbor to protect certain
                                                                                                                                                              I. Background
                                                                                                        arrangements involving the provision of
                                             42 CFR Part 1001                                           interoperable electronic health records               A. Anti-Kickback Statute and Safe
                                             RIN 0991–AB33
                                                                                                        software or information technology and                Harbors
                                                                                                        training services. The final rule for this               Section 1128B(b) of the Act (42 U.S.C.
                                             Medicare and State Health Care                             safe harbor was published on August 8,                1320a–7b(b), the anti-kickback statute)
                                             Programs: Fraud and Abuse;                                 2006 (71 FR 45110) and is scheduled to                provides criminal penalties for
                                             Electronic Health Records Safe Harbor                      sunset on December 31, 2013 (42 CFR                   individuals or entities that knowingly
                                             Under the Anti-Kickback Statute                            1001.952(y)(13)). OIG published a notice              and willfully offer, pay, solicit, or
                                                                                                        of proposed rulemaking on April 10,                   receive remuneration in order to induce
                                             AGENCY:  Office of Inspector General                       2013 (78 FR 21314), proposing to update
                                             (OIG), HHS.                                                                                                      or reward the referral of business
                                                                                                        certain aspects of the electronic health
                                                                                                                                                              reimbursable under any of the Federal
                                             ACTION: Final rule.                                        records safe harbor and to extend the
                                                                                                                                                              health care programs, as defined in
                                                                                                        sunset date. The purpose of this final
                                             SUMMARY:   In this final rule, the Office of                                                                     section 1128B(f) of the Act. The offense
                                                                                                        rule is to address comments received on
                                             Inspector General (OIG) amends the safe                                                                          is classified as a felony and is
                                                                                                        the proposed rule and to finalize certain
                                             harbor regulation concerning electronic                                                                          punishable by fines of up to $25,000
                                                                                                        aspects of the proposed rule.
                                             health records items and services,                                                                               and imprisonment for up to 5 years.
                                             which defines certain conduct that is                      B. Summary of the Final Rule                          Violations of the anti-kickback statute
                                             protected from liability under the                            In this final rule, we amend the                   may also result in the imposition of
                                             Federal anti-kickback statute, section                     current safe harbor in several ways.                  CMPs under section 1128A(a)(7) of the
                                             1128B(b) of the Social Security Act (the                   First, we update the provision under                  Act (42 U.S.C. 1320a–7a(a)(7)), program
                                             Act). Amendments include updating the                      which electronic health records                       exclusion under section 1128(b)(7) of
                                             provision under which electronic health                    software is deemed interoperable.                     the Act (42 U.S.C. 1320a–7(b)(7)), and
                                             records software is deemed                                 Second, we remove the requirement                     liability under the False Claims Act (31
                                             interoperable; removing the electronic                     related to electronic prescribing                     U.S.C. 3729–33).
                                             prescribing capability requirement;                        capability from the safe harbor. Third,                  The types of remuneration covered
                                             extending the sunset provision until                       we extend the sunset date of the safe                 specifically include, without limitation,
                                             December 31, 2021; limiting the scope                      harbor to December 31, 2021. Fourth,                  kickbacks, bribes, and rebates, whether
                                             of protected donors to exclude                             we limit the scope of protected donors                made directly or indirectly, overtly or
                                             laboratory companies; and clarifying the                   to exclude laboratory companies. And                  covertly, in cash or in kind. In addition,
                                             condition that prohibits a donor from                      fifth, we revise the text to clarify the              prohibited conduct includes not only
                                             taking any action to limit or restrict the                 condition that prohibits a donor from                 the payment of remuneration intended
                                             use, compatibility, or interoperability of                 taking any action to limit or restrict the            to induce or reward referrals of patients,
                                             the donated items or services.                             use, compatibility, or interoperability of            but also the payment of remuneration
                                             DATES: Effective Date: With the                            the donated items or services.                        intended to induce or reward the
                                             exception of the revision of 42 CFR                                                                              purchasing, leasing, or ordering of, or
                                                                                                        C. Costs and Benefits                                 arranging for or recommending the
                                             1001.952(y)(13), this regulation is
                                             effective on March 27, 2014. The                             This final rule modifies an existing                purchasing, leasing, or ordering of, any
                                             revision of 42 CFR 1001.952(y)(13) is                      safe harbor to the anti-kickback statute.             good, facility, service, or item
                                             effective on December 31, 2013.                            This safe harbor permits certain entities             reimbursable by any Federal health care
                                                                                                        to provide certain items and services in              program.
                                             FOR FURTHER INFORMATION CONTACT:
                                                                                                        the form of software and information                     Because of the broad reach of the
                                             James A. Cannatti III, Heather L.
                                                                                                        technology and training services                      statute, concern was expressed that
                                             Westphal, or Andrew VanLandingham,
                                                                                                        necessary and used predominantly to                   some relatively innocuous commercial
                                             Office of Counsel to the Inspector
                                                                                                        create, maintain, transmit, or receive                arrangements were covered by the
                                             General, (202) 619–0335.
                                                                                                        electronic health records to certain                  statute and, therefore, potentially
                                             SUPPLEMENTARY INFORMATION:                                                                                       subject to criminal prosecution. In
                                                                                                        parties. Parties may voluntarily seek to
                                                                                                        comply with safe harbors so that they                 response, Congress enacted section 14 of
                                               Social security act             United States code
                                                    citation                         citation           have assurance that their conduct will                the Medicare and Medicaid Patient and
                                                                                                        not subject them to any enforcement                   Program Protection Act of 1987, Public
                                             1128B ........................   42 U.S.C. 1320a–7b        actions under the anti-kickback statute,              Law 100–93 (section 1128B(b)(3)(E) of
                                                                                                        the civil monetary penalty (CMP)                      the Act; 42 U.S.C. 1320a–7b(B)(3)(E)),
                                             Executive Summary                                          provision for anti-kickback statute                   which specifically required the
                                                                                                        violations, or the program exclusion                  development and promulgation of
                                             A. Purpose of the Regulatory Action                        authority related to kickbacks, but safe              regulations, the so-called ‘‘safe harbor’’
                                               Pursuant to section 14 of the Medicare                   harbors do not impose new                             provisions, that would specify various
                                             and Medicaid Patient and Program                           requirements on any party.                            payment and business practices that
                                             Protection Act of 1987 and its legislative                   This is not a major rule, as defined at             would not be subject to sanctions under
                                             history, Congress required the Secretary                   5 U.S.C. 804(2). It is also not                       the anti-kickback statute, even though
sroberts on DSK5SPTVN1PROD with RULES




                                             of Health and Human Services (the                          economically significant, because it will             they may potentially be capable of
                                             Secretary) to promulgate regulations                       not have a significant effect on program              inducing referrals of business under the
                                             setting forth various ‘‘safe harbors’’ to                  expenditures, and there are no                        Federal health care programs. Since July
                                             the anti-kickback statute, which would                     additional substantive costs to                       29, 1991, we have published in the
                                             be evolving rules that would be                            implement the resulting provisions. We                Federal Register a series of final
                                             periodically updated to reflect changing                   expect the safe harbor, as modified by                regulations establishing ‘‘safe harbors’’


                                        VerDate Mar<15>2010      00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00002   Fmt 4701   Sfmt 4700   E:\FR\FM\27DER2.SGM   27DER2
                                                              Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations                                             79203

                                             in various areas. These OIG safe harbor                 sunset on December 31, 2013. 42 CFR                     As we observed in the 2006 Final
                                             provisions have been developed ‘‘to                     1001.952(y)(13).                                      Rule,
                                             limit the reach of the statute somewhat                                                                         OIG has a longstanding concern about the
                                                                                                     C. Summary of the 2013 Proposed
                                             by permitting certain non-abusive                                                                             provision of free or reduced price goods or
                                                                                                     Rulemaking
                                             arrangements, while encouraging                                                                               services to an existing or potential referral
                                             beneficial or innocuous arrangements.’’                    On April 10, 2013 (78 FR 21314), we                source. There is a substantial risk that free or
                                             56 FR 35952, 35958 (July 29, 1991).                     published a proposed rule (the 2013                   reduced-price goods or services may be used
                                               Health care providers, suppliers, and                 Proposed Rule) setting forth certain                  as a vehicle to disguise or confer an unlawful
                                             others may voluntarily seek to comply                                                                         payment for referrals of Federal health care
                                                                                                     proposed changes to the electronic                    program business. Financial incentives
                                             with safe harbors so that they have the                 health records safe harbor. In the 2013               offered, paid, solicited, or received to induce
                                             assurance that their business practices                 Proposed Rule, we proposed to amend                   or in exchange for generating Federal health
                                             will not be subject to any enforcement                  the current safe harbor in several ways.              care business increase the risks of, among
                                             action under the anti-kickback statute,                 First, we proposed to update the                      other problems: (i) [o]verutilization of health
                                             the CMP provision for anti-kickback                     provision under which electronic health               care items or services; (ii) increased Federal
                                             violations, or the program exclusion                    records software is deemed                            program costs; (iii) corruption of medical
                                             authority related to kickbacks. In giving               interoperable. Second, we proposed to                 decision making; and (iv) unfair competition.
                                             the Department of Health and Human                      remove the requirement related to                     71 FR 45110, 45111 (Aug. 8, 2006).
                                             Services (Department or HHS) the                        electronic prescribing capability from                We further stated that,
                                             authority to protect certain                            the safe harbor. Third, we proposed to                consistent with the structure and purpose of
                                             arrangements and payment practices                      extend the sunset date of the safe                    the anti-kickback statute and the regulatory
                                             under the anti-kickback statute,                        harbor. In addition to these proposals,               authority at section 1128B(b)(3)(E) of the Act,
                                             Congress intended the safe harbor                       we solicited public comment on other                  we believe any safe harbor for electronic
                                             regulations to be updated periodically to               proposals and possible amendments to                  health records arrangements should protect
                                             reflect changing business practices and                 the safe harbor, including limiting the               beneficial arrangements that would eliminate
                                             technologies in the health care industry.               scope of protected donors and adding or               perceived barriers to the adoption of
                                                                                                                                                           electronic health records without creating
                                             B. The Electronic Health Records Safe                   modifying conditions to limit the risk of             undue risk that the arrangements might be
                                             Harbor                                                  data and referral lock-in. CMS proposed               used to induce or reward the generation of
                                                Using our authority at section                       almost identical changes to the                       Federal health care program business.
                                             1128B(b)(3)(E) of the Act, we published                 physician self-referral law electronic
                                                                                                                                                           Id.
                                             a notice of proposed rulemaking (the                    health records exception elsewhere in                    We believe that the safe harbor, as
                                             2005 Proposed Rule) that would                          the same issue of the Federal Register.               amended by this final rule, achieves this
                                             promulgate two safe harbors to address                  78 FR 21308 (Apr. 10, 2013). We                       goal.
                                             donations of certain electronic health                  attempted to ensure as much                              Elsewhere in this issue of the Federal
                                             records software and directly related                   consistency as possible between our                   Register, CMS is finalizing almost
                                             training services. 70 FR 59015, 59021                   proposed safe harbor changes and                      identical changes to the electronic
                                             (Oct. 11, 2005). One proposed safe                      CMS’s proposed exception changes,                     health records exception 1 under the
                                             harbor would have protected certain                     within the limitations imposed by the                 physician self-referral law. We
                                             arrangements involving donations of                     differences in the underlying statutes.               attempted to ensure as much
                                             electronic health records items and                     We noted in the 2013 Proposed Rule                    consistency as possible between our
                                             services made before the adoption of                    that, due to the close nexus between the              changes to the electronic health records
                                             certification criteria. The other proposed              2013 Proposed Rule and CMS’s                          safe harbor and CMS’s exception
                                             safe harbor would have protected                        proposed rule, we may consider                        changes, within the limitations imposed
                                             certain arrangements involving                          comments submitted in response to                     by the differences in the underlying
                                             nonmonetary remuneration in the form                    CMS’s proposed rule when crafting our                 statutes. As indicated in the 2013
                                             of interoperable electronic health                      final rule. Similarly, CMS stated that it             Proposed Rule, we have considered and
                                             records software certified in accordance                may consider comments submitted in                    responded to the timely comments we
                                             with criteria adopted by the Secretary                  response to the 2013 Proposed Rule in                 received as well as those CMS received.
                                             and directly related training services. In              crafting its final rule.                              Similarly, CMS considered comments
                                             the same issue of the Federal Register,                 D. Summary of the Final Rulemaking                    submitted in response to our 2013
                                             the Centers for Medicare & Medicaid                                                                           Proposed Rule in crafting its final rule.
                                             Services (CMS) proposed similar                            In this final rulemaking, we amend                 For purposes of this final rule, we treat
                                             exceptions to the physician self-referral               the electronic health records safe harbor             comments that were made with respect
                                             law. 70 FR 59182 (Oct. 11, 2005).                       at 42 CFR 1001.952(y) in several ways.                to the physician self-referral law as if
                                                On August 8, 2006 (71 FR 45110), we                  First, we update the provision under                  they had been made with respect to the
                                             published a final rule (the 2006 Final                  which electronic health records                       anti-kickback statute, except where they
                                             Rule) that, among other things, finalized               software is deemed interoperable.                     relate to differences in the underlying
                                             a safe harbor at 42 CFR 1001.952(y) (the                Second, we remove the requirement                     statutes.
                                             electronic health records safe harbor) for              related to electronic prescribing
                                             protecting certain arrangements                         capability from the safe harbor. Third,               II. Summary of Public Comments and
                                             involving interoperable electronic                      we extend the sunset date of the safe                 OIG Responses
                                             health records software or information                  harbor to December 31, 2021. Fourth,                     OIG received approximately 109
                                             technology and training services. In the                we limit the scope of protected donors
sroberts on DSK5SPTVN1PROD with RULES




                                                                                                                                                           timely filed comments from a variety of
                                             same issue of the Federal Register, CMS                 to exclude laboratory companies. And                  entities and individuals. CMS received
                                             published similar final regulations                     fifth, we revise the text to clarify the              a similar number of timely filed
                                             pertaining to the physician self-referral               condition that prohibits a donor from                 comments. Overall, the commenters
                                             law at 42 CFR 411.357(w). 71 FR 45140                   taking any action to limit or restrict the            (including in comments submitted to
                                             (Aug. 8, 2006). The electronic health                   use, compatibility, or interoperability of
                                             records safe harbor is scheduled to                     the donated items or services.                          1 42   CFR 411.357(w).



                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00003   Fmt 4701   Sfmt 4700   E:\FR\FM\27DER2.SGM    27DER2
                                             79204            Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations

                                             CMS) supported the proposed                             Certified EHR Technology in 45 CFR                    does not require software to be certified
                                             amendments to the electronic health                     part 170. For example, for 2013, the                  to ONC standards in order to be eligible
                                             records safe harbor. However, we                        applicable definition of Certified EHR                for donation. As we discussed in the
                                             received many specific comments about                   Technology includes both the 2011 and                 2006 Final Rule (71 FR 45110, 45127
                                             various aspects of the proposed                         the 2014 editions of the electronic                   (Aug. 8, 2006)), the deeming provision
                                             amendments. We have divided the                         health record certification criteria.                 offers parties one way to be certain that
                                             summaries of the public comments and                    Therefore, in 2013, software certified to             the interoperability condition of
                                             our responses into five parts: A. The                   meet either the 2011 edition or the 2014              subparagraph (y)(2) is met at the time of
                                             Deeming Provision, B. The Electronic                    edition could satisfy the safe harbor                 donation. Even if donated software is
                                             Prescribing Provision, C. The Sunset                    provision as we proposed.                             not deemed to be interoperable, the
                                             Provision, D. Additional Proposals and                     Additionally, we solicited comments                donation would satisfy the
                                             Considerations, and E. Comments                         on whether removing the current 12-                   interoperability condition of
                                             Outside the Scope of Rulemaking.                        month certification requirement would                 subparagraph (y)(2) if it meets the
                                                                                                     impact donations and whether to retain                definition of ‘‘interoperable’’ in the Note
                                             A. The Deeming Provision                                the 12-month certification period as an               to Paragraph (y) in 42 CFR 1001.952(y).
                                                Our current electronic health records                additional means of determining                          Comment: One commenter expressed
                                             safe harbor requires at 42 CFR                          eligibility under the deeming provision.              concerns about linking the
                                             1001.952(y)(2) that the donated software                   After consideration of the public                  interoperability requirement of the safe
                                             must be ‘‘interoperable’’ (as defined at                comments, we are finalizing the                       harbor to ONC’s certification criteria
                                             Note to Paragraph (y) in 42 CFR                         proposed revisions to subparagraph                    and standards because they do not, in
                                             1001.952(y)). This condition further                    (y)(2) with one clarification to our                  the commenter’s assessment, reflect
                                             provides that software is deemed to be                  proposed regulatory text to ensure the                contemporary views of interoperability.
                                             interoperable if a certifying body                      deeming provision closely tracks ONC’s                The commenter suggested that we
                                             recognized by the Secretary has certified               certification program. We are revising                instead implement a broad definition of
                                             the software within no more than 12                     42 CFR 1001.952(y)(2) to state that                   interoperability adopted by the
                                             months prior to the date it is provided                 software is deemed to be interoperable                International Organization for
                                             to the recipient. We proposed two                       if, on the date it is provided to the                 Standardization or, alternatively, that
                                             modifications to this provision in                      recipient, it has been certified by a                 we adopt interoperability functional
                                             1001.952(y)(2), which is known as the                   certifying body authorized by the                     definitions developed by the American
                                             ‘‘deeming provision.’’ Both                             National Coordinator for Health                       National Standards Institute.
                                             modifications to the deeming provision                  Information Technology to an edition of                  Response: While we are mindful that
                                             were proposed to reflect recent                         the electronic health record certification            other non-governmental organizations
                                             developments in the Office of the                       criteria identified in the then-applicable            may be developing their own standards
                                             National Coordinator for Health                         version of 45 CFR part 170. As we stated              to encourage the adoption of
                                             Information Technology (ONC)                            in the 2006 Final Rule, we understand                 interoperable electronic health records
                                             certification program.                                  that                                                  technology, the ONC certification
                                                The first proposed modification                                                                            criteria and standards are the core
                                                                                                     the ability of software to be interoperable is
                                             would reflect ONC’s responsibility for                  evolving as technology develops. In assessing         policies the Department is utilizing to
                                             authorizing certifying bodies. The                      whether software is interoperable, we believe         accelerate and advance interoperability
                                             second proposal would modify the time                   the appropriate inquiry is whether the                and health information exchange. ONC
                                             frame during which donated software                     software is as interoperable as feasible given        and CMS jointly published a Request for
                                             must be certified. Currently, to meet the               the prevailing state of technology at the time        Information (78 FR 14793 (Mar. 7,
                                             deeming provision, the safe harbor                      the items or services are provided to the             2013)) to solicit public feedback on a set
                                             requires software to be certified within                recipient.                                            of possible policies ‘‘that would
                                             no more than 12 months prior to the                     71 FR 45110, 45126 (Aug. 8, 2006).                    encourage providers to routinely
                                             date of donation.                                         We believe our final rule with respect              exchange health information through
                                                Subsequent to the issuance of the                    to this condition is consistent with that             interoperable systems in support of care
                                             2006 Final Rule, ONC developed a                        understanding and our objective of                    coordination across health care
                                             regulatory process for adopting                         ensuring that software is certified to the            settings.’’ 78 FR 14793, 14794 (Mar. 7,
                                             certification criteria and standards,                   current required standard of                          2013). The process by which ONC
                                             which is anticipated to occur on a                      interoperability when it is donated.                  considers the implementation of new
                                             cyclical basis. (For more information,                                                                        certification criteria and standards is a
                                             see ONC’s September 4, 2012 Final Rule                  ONC as Agency To Recognize Certifying                 public, transparent effort that allows the
                                             entitled ‘‘Health Information                           Bodies                                                Department’s electronic health records
                                             Technology: Standards, Implementation                      Comment: All commenters addressing                 technology experts to appropriately
                                             Specifications, and Certification Criteria              the subject supported the proposed                    consider the comments submitted in
                                             for Electronic Health Record                            modification that would amend the safe                light of the goal ‘‘to accelerate the
                                             Technology, 2014 Edition; Revisions to                  harbor to recognize ONC as the agency                 existing progress and enhance a market
                                             the Permanent Certification Program for                 responsible for authorizing certifying                environment that will accelerate [health
                                             Health Information Technology’’ (77 FR                  bodies on behalf of the Secretary, with               information exchange] across providers.
                                             54163).) Our proposal would modify the                  one commenter requesting that we                      . . .’’ 78 FR 14793, 14795 (Mar. 7,
                                             deeming provision to track ONC’s                        clarify that software need not be                     2013).
                                             anticipated regulatory cycle. As a result,                                                                       We believe it is reasonable and
sroberts on DSK5SPTVN1PROD with RULES




                                                                                                     certified to ONC standards to be eligible
                                             software would be eligible for deeming                  for donation.                                         appropriate to link the deeming
                                             if, on the date it is provided to the                      Response: We appreciate the                        provision to the ONC certification
                                             recipient, it has been certified to any                 commenters’ support for this                          criteria and standards because of ONC’s
                                             edition of the electronic health record                 modification. With respect to the                     expertise and its public process for
                                             certification criteria that is identified in            request for clarification, the commenter              considering and implementing the
                                             the then-applicable definition of                       is correct that 42 CFR 1001.952(y)(2)                 criteria and standards. ONC is the


                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00004   Fmt 4701   Sfmt 4700   E:\FR\FM\27DER2.SGM   27DER2
                                                              Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations                                        79205

                                             Department agency with expertise in                     modify the safe harbor certification time             software certified to an edition
                                             determining the relevant criteria and                   frame to align with ONC’s certification               identified in the regulations in effect on
                                             standards to ensure that software is as                 program. We believe, as the commenters                the date of the donation would be
                                             interoperable as feasible given the                     suggest, that such a modification will                certified to a then-applicable edition,
                                             prevailing state of technology. ONC                     support our dual goals of the deeming                 regardless of whether the particular
                                             expects to revise and expand such                       provision: (1) To ensure that donated                 edition was also referenced in the then-
                                             criteria and standards incrementally                    software is as interoperable as feasible              applicable definition of Certified EHR
                                             over time to support greater electronic                 given the prevailing state of technology              Technology.
                                             health record technology                                at the time it is provided to the recipient             Thus, we are finalizing our policy to
                                             interoperability. See 77 FR 54163, 54269                and (2) to provide donors and recipients              more closely track ONC’s certification
                                             (Sept. 4, 2012). Additionally, utilizing                a means to have certainty that donated                program in the deeming provision. We
                                             the ONC certification criteria and                      software satisfies the interoperability               are adopting modified regulatory text to
                                             standards that are implemented through                  condition of the safe harbor.                         provide that software is deemed to be
                                             a public process affords the best                          We are not persuaded to adopt the                  interoperable if, on the date it is
                                             opportunity for interested parties to                   commenter’s suggestion to retain the 12-              provided to the recipient, it has been
                                             comment on, understand, and                             month certification time frame; this                  certified by a certifying body authorized
                                             ultimately implement those criteria and                 would not ensure that software is                     by the National Coordinator for Health
                                             standards. Therefore, we are not                        certified to the current required                     Information Technology to an edition of
                                             adopting the commenter’s suggestion.                    standard of interoperability. In the                  the electronic health record certification
                                               Comment: One commenter stated that                    course of evaluating the commenter’s                  criteria identified in the then-applicable
                                             many electronic health records systems                  alternative proposal, however, we                     version of 45 CFR part 170. We believe
                                             lack the capabilities to function within                realized that our proposed regulatory                 that this modified regulatory text is
                                             a patient-centered medical home. The                    text may be too narrow to satisfy the                 consistent with the intent we articulated
                                             commenter suggested that we finalize                    dual goals of the deeming provision.                  in the 2013 Proposed Rule to modify the
                                             policies that further strengthen the use                Under our proposed regulatory text from               deeming provision by removing the 12-
                                             of core electronic health records                       the 2013 Proposed Rule, software would                month timeframe and substituting a
                                             features.                                               be deemed interoperable if it was                     provision that more closely tracks
                                               Response: As discussed, ONC is the                    certified to an edition 2 of certification            ONC’s certification program. Further,
                                             Department agency with expertise in                     criteria referenced in the then-                      we believe that the regulatory text, as
                                             determining the relevant criteria and                   applicable definition of ‘‘Certified EHR              modified, will support our dual goals of
                                             standards for electronic health records                 Technology’’ at 45 CFR 170.102. That                  the deeming provision, which we
                                             technology, including those related to                  definition applies only to the Medicare               discussed above.
                                             the use of core features. ONC                           and Medicaid Electronic Health Record
                                             certification criteria and standards that               Incentive Programs (the EHR Incentive                 New Certification/Deeming
                                             are implemented through a public                        Programs). See generally 42 CFR part                  Requirements
                                             process afford the best opportunity for                 495. However, ONC also has the                          Comment: One commenter suggested
                                             interested parties to comment on,                       authority to adopt certification criteria             that, for deeming purposes, we should
                                             understand, and ultimately implement                    for health information technology,                    require that software be certified to the
                                             those criteria and standards. Therefore,                including electronic health records, into             latest edition of electronic health record
                                             we are not adopting the commenter’s                     other regulations at 45 CFR part 170 that             certification criteria rather than any
                                             suggestion.                                             may not be referenced in the definition               edition then-applicable. This
                                                                                                     of ‘‘Certified EHR Technology’’ because               commenter also suggested that the
                                             Time Frame for Certification
                                                                                                     they are not related to the EHR Incentive             electronic directory of service (e-DOS)
                                               Comment: Of the commenters that                       Programs. If we retained our proposed                 standard should be a certification
                                             addressed the issue, most supported our                 regulatory text, software certified to                requirement for donated software, and
                                             proposal to modify the time frame                       criteria in editions not included in the              asserted that both recommendations
                                             within which donated software must                      definition ‘‘Certified EHR Technology’’               would help ensure electronic health
                                             have been certified to more closely track               would not be eligible for deeming under               records software is interoperable.
                                             the current ONC certification program.                  the safe harbor, which was not our                      Response: We decline to adopt the
                                             Commenters asserted that aligning with                  intent. The safe harbor described in this             commenter’s suggested requirements for
                                             ONC’s certification program will                        rule is not limited to donations to                   the safe harbor at 42 CFR 1001.952(y).
                                             provide donors and recipients more                      individuals and entities eligible to                  We believe that requiring that donated
                                             certainty about the deemed status of                    participate in the EHR Incentive                      software be certified to editions that are
                                             donated software because the software                   Programs. Individuals and entities such               adopted and not yet retired by ONC
                                             must be certified to meet only one set                  as long-term/post-acute care providers                through its certification program
                                             of standards on the same certification                  and non-physician behavioral health                   ensures that the software is certified to
                                             cycle to comply with both the ONC                       practitioners, while not eligible to                  interoperability standards updated
                                             certification criteria and the deeming                  participate in the EHR Incentive                      regularly by the Department agency
                                             provision of the safe harbor. One                       Programs, may receive donations that                  with the relevant expertise. Further,
                                             commenter supported the modification,                   are protected by this safe harbor, if the             adding requirements to the ONC
                                             but suggested that the 12-month                         donations meet the conditions of the                  certification criteria and standards is
                                             certification time frame also be retained               safe harbor. Further, we have recently                outside the scope of this rule. Therefore,
sroberts on DSK5SPTVN1PROD with RULES




                                             or, alternatively, that we allow software               learned that ONC intends to retire                    we are not implementing the
                                             to be deemed to be interoperable if it                  outdated editions of certification criteria           commenter’s suggestions.
                                             has been certified to any edition of the                by removing them from the regulatory
                                             ONC electronic health record                                                                                  B. The Electronic Prescribing Provision
                                                                                                     text at 45 CFR part 170. Accordingly,
                                             certification criteria.                                                                                         At 42 CFR 1001.952(y)(10), our
                                               Response: We appreciate the                             2 ONC has recently begun characterizing sets of     current electronic health records safe
                                             commenters’ support for our proposal to                 adopted certification criteria as ‘‘editions.’’       harbor specifies that the donated


                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00005   Fmt 4701   Sfmt 4700   E:\FR\FM\27DER2.SGM   27DER2
                                             79206            Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations

                                             software must ‘‘contain[ ] electronic                   As we discussed in the 2013 Proposed                  the need for a safe harbor for donations
                                             prescribing capability, either through an               Rule, electronic prescribing technology               should continue to diminish over time.
                                             electronic prescribing component or the                 would remain eligible for donation                    Accordingly, we proposed to extend the
                                             ability to interface with the recipient’s               under the electronic health records or                sunset date of the safe harbor to
                                             existing electronic prescribing system                  under the electronic prescribing safe                 December 31, 2016, selecting this date
                                             that meets the applicable standards                     harbor at 42 CFR 1001.952(x). We do not               for the reasons described in the 2013
                                             under Medicare Part D at the time the                   believe that removing this condition                  Proposed Rule. We also specifically
                                             items and services are provided.’’ In the               would increase the risk of fraud or                   sought comment on whether we should,
                                             preamble to the 2006 Final Rule (71 FR                  abuse posed by donations made                         as an alternative, select a later sunset
                                             45110, 45125 (Aug. 8, 2006)), we stated                 pursuant to the safe harbor.                          date and what that date should be. For
                                             that we included ‘‘this requirement, in                    Comment: Many commenters                           example, we stated that we were
                                             part, because of the critical importance                supported our proposal to eliminate the               considering establishing a sunset date of
                                             of electronic prescribing in producing                  requirement that donated software                     December 31, 2021. 78 FR 21314, 21318
                                             the overall benefits of health                          include electronic prescribing capability             (Apr. 10, 2013). In response to
                                             information technology, as evidenced by                 at the time it is provided to the                     comments, we are extending the sunset
                                             section 101 of the [Medicare                            recipient, agreeing that developments                 date of the safe harbor to December 31,
                                             Prescription Drug, Improvement, and                     since the promulgation of the safe                    2021.
                                             Modernization Act of 2003 (MMA), Pub.                   harbor make it unnecessary to retain                    Comment: Numerous commenters
                                             L. 108–173].’’ We also noted that it was                this requirement. One of the                          urged us to make permanent the safe
                                             ‘‘our understanding that most electronic                commenters asserted that the goal of the              harbor at 42 CFR 1001.952(y).
                                             health records systems already include                  requirement for the inclusion of                      According to these commenters, a
                                             an electronic prescribing component.’’                  electronic prescribing technology in                  permanent safe harbor could (1) provide
                                             Id.                                                     donated electronic health records                     certainty with respect to the cost of
                                                We understand the critical                           software—that is, increasing the use of               electronic health records items and
                                             importance of electronic prescribing.                   electronic prescribing—had been                       services for recipients, (2) encourage
                                             However, in light of developments since                 achieved through the electronic                       adoption by physicians who are new
                                             the 2006 Final Rule, we proposed to                     prescribing incentive program                         entrants into medical practice or have
                                             delete from the safe harbor the                         authorized by the Medicare                            postponed adoption based on financial
                                             condition at 42 CFR 1001.952(y)(10).                    Improvements for Patients and                         concerns regarding the ongoing costs of
                                             Based on our review of the public                       Providers Act of 2008.                                maintaining and supporting an
                                             comments and for the reasons stated in                     Response: We appreciate the                        electronic health records system, (3)
                                             the 2013 Proposed Rule, we are                          commenters’ support and, for reasons                  encourage adoption by providers and
                                             finalizing our proposal to eliminate the                explained in more detail previously in                suppliers that are not eligible for
                                             requirement that electronic health                      this final rule, we are eliminating the               incentive payments through the
                                             records software contain electronic                     requirement in 42 CFR 1001.952(y)(10)                 Medicare and Medicaid programs, and
                                             prescribing capability in order to qualify              that donated electronic health records                (4) preserve the gains already made in
                                             for protection under the safe harbor at                 software contain electronic prescribing               the adoption of interoperable electronic
                                             42 CFR 1001.952(y).                                     capability, either through an electronic              health records technology, especially
                                                Comment: Two commenters disagreed                    prescribing component or the ability to               where hospitals have invested in health
                                             that it is no longer necessary to require               interface with the recipient’s existing               information technology infrastructure
                                             the inclusion of electronic prescribing                 electronic prescribing system that meets              through protected donations of such
                                             capability in donated electronic health                 the applicable standards under                        technology. According to some
                                             records software. One of the                            Medicare Part D, at the time the items                commenters, although the safe harbor
                                             commenters stated that it was                           and services are provided.                            was implemented to encourage the
                                             encouraged by the growth in the number                                                                        adoption of health information
                                                                                                     C. The Sunset Provision
                                             of physicians using electronic                                                                                technology, it is now a necessity for the
                                             prescribing between 2008 and 2012, but                    Protected donations under the current               creation of new health care delivery and
                                             believed that the requirement should                    electronic health records safe harbor                 payment models. Some commenters
                                             remain for patient safety reasons                       must be made on or before December 31,                also stated their support for a permanent
                                             because electronic prescribing is critical              2013. In adopting this condition of the               safe harbor because electronic health
                                             to lowering the incidences of                           electronic health records safe harbor, we             record technology adoption has been
                                             preventable medication errors.                          stated that ‘‘the need for a safe harbor              slower than expected and allowing the
                                                Response: Like the commenters, and                   for donations of electronic health                    safe harbor to expire in 2016 would
                                             as we stated in the 2013 Proposed Rule                  records technology should diminish                    adversely affect the rate of adoption.
                                             (78 FR 21314, 21317 (Apr. 10, 2013)),                   substantially over time as the use of                 Some of these commenters requested
                                             we believe in the importance of                         such technology becomes a standard                    that if we are not inclined to make the
                                             electronic prescribing. However, as                     and expected part of medical practice.’’              safe harbor permanent, we extend the
                                             discussed in the 2013 Proposed Rule,                    71 FR 45110, 45133 (Aug. 8, 2006).                    availability of the safe harbor through
                                             we are persuaded that other existing                      As we discussed in the 2013 Proposed                the latest date noted in the 2013
                                             policy drivers, many of which did not                   Rule, although the industry has made                  Proposed Rule—December 31, 2021.
                                             exist in August 2006 when the safe                      great progress in the adoption and                      Response: We agree with the
                                             harbor was promulgated, sufficiently                    meaningful use of electronic health                   commenters that the continued
                                             support the adoption of electronic                      records technology, the use of such
sroberts on DSK5SPTVN1PROD with RULES




                                                                                                                                                           availability of the safe harbor plays a
                                             prescribing capabilities. We do not want                technology has not yet been adopted                   part in achieving the Department’s goal
                                             to undermine important public policy                    nationwide. Continued use and further                 of promoting electronic health record
                                             goals by requiring redundant and                        adoption of electronic health records                 technology adoption. However, we do
                                             sometimes expensive software                            technology remains an important goal of               not believe that making the safe harbor
                                             capabilities that may not contribute to                 the Department. We continue to believe                permanent is required or appropriate at
                                             the interoperability of a given system.                 that as progress on this goal is achieved,            this time. The permanent availability of


                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00006   Fmt 4701   Sfmt 4700   E:\FR\FM\27DER2.SGM   27DER2
                                                              Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations                                         79207

                                             the safe harbor could serve as a                        December 31, 2021 sunset date for the                 ‘‘penalties’’ under the Medicare EHR
                                             disincentive to adopting interoperable                  safe harbor. We believe this sunset date              Incentive Program appear to
                                             electronic health record technology in                  will support adoption, provide a                      misunderstand the duration of the
                                             the near-term. Moreover, as described in                timeframe that aligns with the financial              downward payment adjustment under
                                             the 2013 Proposed Rule and elsewhere                    incentives for electronic health records              the EHR Incentive Programs, which will
                                             in this final rule, we are concerned                    adoption currently offered by the                     continue until an eligible participant
                                             about inappropriate donations of                        Federal government, and safeguard                     adopts and meaningfully uses
                                             electronic health records items and                     against foreseeable future fraud risks.               appropriate electronic health record
                                             services that lock in data and referrals                   Comment: Two commenters suggested                  technology. For additional information,
                                             between a donor and recipient, among                    that the sunset date should be extended,              see the July 28, 2010 final rule entitled
                                             other risks. A permanent safe harbor                    but not beyond December 31, 2016. One                 ‘‘Medicare and Medicaid Programs;
                                             might exacerbate these risks over the                   asserted that a shorter extension of the              Electronic Health Record Incentive
                                             longer term without significantly                       sunset date for the safe harbor would                 Program (75 FR 44448). The practical
                                             improving adoption rates. Instead, we                   allow a wider range of people to obtain               effect of the commenters’ suggestion
                                             believe that a reasonable extension of                  access to health information technology               would be to extend permanently the
                                             the safe harbor strikes an appropriate                  services while not diminishing the                    electronic health records safe harbor.
                                             balance between furthering the                          incentive for providers and suppliers to              For the reasons stated elsewhere in this
                                             Department’s electronic health record                   acquire, implement, and standardize the               final rule, we do not believe that making
                                             adoption goals and safeguarding against                 necessary electronic health records                   the safe harbor permanent is required or
                                             undue risks of abuse. In light of other                 systems. Another commenter supported                  appropriate at this time and we are not
                                             modifications we are making in this                     our proposal to extend the availability               adopting the commenters’ suggestion.
                                             final rule to mitigate ongoing risks,                   of the safe harbor through December 31,               We believe the date we selected better
                                             including removing laboratory                           2016, and encouraged us to consider an                serves the goals of the safe harbor.
                                             companies from the scope of protected                   additional extension as that date                     Therefore, we are extending the
                                             donors, we are persuaded to permit the                  approaches. One commenter suggested                   availability of the safe harbor at 42 CFR
                                             use of the safe harbor for more than the                that we extend the availability of the                1001.952(y) through December 31, 2021.
                                             additional 3-year period that we                        safe harbor for at least 6 years, although            We also note that there are several types
                                             proposed.                                               a shorter or longer time period could be              of Medicare and Medicaid providers
                                                                                                     established after review of adoption                  and suppliers that are not eligible for
                                                The adoption of interoperable                        rates across the range of providers and               incentives under the EHR Incentive
                                             electronic health records technology                    suppliers who may or may not be                       Programs (e.g., long-term/post-acute
                                             remains a challenge for some providers                  eligible for incentives under the EHR                 care providers and non-physician
                                             and suppliers, despite progress in its                  Incentive Programs. Other commenters                  behavioral health practitioners). This
                                             implementation and meaningful use                       supported our alternative proposal to                 rule applies to donations to any
                                             since the August 2006 promulgation of                   extend the availability of the safe harbor            individual or entity engaged in the
                                             the safe harbor. See ONC’s Report to                    through December 31, 2021, which                      delivery of health care, regardless of
                                             Congress on Health IT Adoption, (June                   corresponds to the statutory end of the               whether the recipient of the donation is
                                             2013) at http://www.healthit.gov/sites/                 Medicaid EHR Incentive Program. These                 eligible for incentives under the EHR
                                             default/files/rtc_adoption_of_healthit_                 commenters noted that more remains to                 Incentive Programs.
                                             and_relatedefforts.pdf and the U.S.                     be done to promote electronic health                     Comment: A few commenters
                                             Department of Health and Human                          records technology adoption, and                      expressed general support for extending
                                             Services Assistant Secretary for                        suggested that maintaining the safe                   the sunset date, but did not specify
                                             Planning and Evaluation’s EHR                           harbor through this date will help                    whether the extension should be for 3
                                             Payment Incentives for Providers                        maximize the incentives for eligible                  years, 8 years, or some other length of
                                             Ineligible for Payment Incentives and                   physicians to adopt electronic health                 time. Commenters noted that failure to
                                             Other Funding Study, (June 2013) at                     records technology and thereby increase               extend the sunset of the safe harbor
                                             http://aspe.hhs.gov/daltcp/reports/                     greater use of electronic health records.             would negatively impact the adoption of
                                             2013/ehrpi.shtml. Although we believe                   Two other commenters suggested tying                  electronic health records technology, as
                                             that the protection afforded by the safe                the sunset of the safe harbor to the                  well as its continued use.
                                             harbor encourages the adoption of such                  corresponding date for assessing                         Response: As described previously,
                                             technology, its permanence is not                       ‘‘penalties’’ under the Medicare EHR                  we are finalizing our alternative
                                             essential to the achievement of                         Incentive Program in order to align                   proposal to extend the availability of the
                                             widespread adoption. It is only one of                  Federal regulation of electronic health               safe harbor through December 31, 2021.
                                             a number of ways that providers and                     records technology adoption and use.                     Comment: A number of commenters
                                             suppliers are incented to adopt                            Response: After considering all of the             urged us to let the safe harbor expire on
                                             electronic health records technology,                   comments on this issue, we believe that               December 31, 2013. Some asserted that
                                             including the incentives offered by the                 an extension of the safe harbor to                    the safe harbor permits the exact
                                             EHR Incentive Programs and the                          December 31, 2021 (which corresponds                  behavior the law was intended to stop.
                                             movement in the health care industry                    to the end of incentive payments under                Other commenters asserted that the safe
                                             toward the electronic exchange of                       the Medicaid Incentive Program), would                harbor permits ‘‘legalized extortion’’ or
                                             patient health information as a means to                (1) support adoption, (2) provide a                   provides ‘‘legal sanction to trample the
                                             improve patient care quality and                        timeframe that aligns with the financial              competition.’’ Another commenter
                                             outcomes. Balancing the desire to                                                                             asserted that the inclusion of ‘‘non-
sroberts on DSK5SPTVN1PROD with RULES




                                                                                                     incentives for electronic health records
                                             encourage further adoption of                           adoption currently offered by the                     market factors’’ (that is, the influence of
                                             interoperable electronic health records                 Federal government, and (3) safeguard                 donors, rather than end users) in the
                                             technology against concerns about                       against foreseeable future fraud risks.               decision to adopt electronic health
                                             potential disincentives to adoption and                 We note that the two commenters that                  record technology may result in lower
                                             the misuse of the safe harbor to lock in                suggested tying the sunset date to the                quality products or services and higher
                                             referral streams, we are establishing a                 corresponding date for assessing                      costs, often with an adverse impact on


                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00007   Fmt 4701   Sfmt 4700   E:\FR\FM\27DER2.SGM   27DER2
                                             79208            Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations

                                             technology adoption and innovation.                     group practices, prescription drug plan               We believe this decision is consistent
                                             Still others asserted that, given the                   (PDP) sponsors, and Medicare                          with and furthers the goal of promoting
                                             financial incentives that the Federal                   Advantage (MA) organizations. We                      the adoption of interoperable electronic
                                             government itself has provided, it is no                stated that we were also considering                  health record technology that benefits
                                             longer necessary to spur the adoption of                whether other individuals or entities                 patient care while reducing the
                                             electronic health record technology                     with front-line patient care                          likelihood that the safe harbor will be
                                             through the underwriting of the cost of                 responsibilities across health care                   misused by donors to secure referrals.
                                             electronic health record technology by                  settings, such as safety net providers,               We also believe that our decision will
                                             outside entities.                                       should be included, and, if so, which                 address potential abuse identified by
                                                Response: Although we appreciate the                 ones. Alternatively, we stated that we                some of the commenters involving
                                             commenters’ concerns, on balance we                     were considering retaining the current                potential recipients conditioning
                                             continue to believe that the safe harbor                broad scope of protected donors, but                  referrals for laboratory services on the
                                             serves to advance the adoption and use                  excluding specific types of donors—                   receipt of, or redirecting referrals for
                                             of interoperable electronic health                      providers and suppliers of ancillary                  laboratory services following, donations
                                             records. However, we caution that a                     services associated with a high risk of               from laboratory companies.
                                             donation arrangement is not protected                   fraud and abuse—because donations by                  Protected Donors: Comments and
                                             under the anti-kickback statute unless it               such providers and suppliers may be                   Suggestions Regarding Laboratory
                                             satisfies each condition of the safe                    more likely to be motivated by a                      Companies
                                             harbor at 42 CFR 1001.952(y).                           purpose of securing future business than
                                             Arrangements that disguise the                          by a purpose of better coordinating care                 Comment: Many commenters raised
                                             ‘‘purchase’’ or lock-in of referrals and                for beneficiaries across health care                  concerns that, notwithstanding a clear
                                             donations that are solicited by the                     settings. In particular, we discussed                 prohibition in the safe harbor,
                                             recipient in exchange for referrals                     excluding laboratory companies from                   laboratory companies are, explicitly or
                                             would fail to satisfy the conditions of                 the scope of protected donors as their                implicitly, conditioning donations of
                                             the safe harbor.                                        donations have been the subject of                    electronic health records items and
                                                Comment: Numerous commenters                         complaints of abuse. We also discussed                services on the receipt of referrals from
                                             suggested that the safe harbor sunset as                excluding other high-risk categories,                 the recipients of those donations or
                                             scheduled on December 31, 2013, but                     such as durable medical equipment                     establishing referral quotas and
                                             only with respect to laboratories and                                                                         threatening to require the recipient to
                                                                                                     (DME) suppliers and independent home
                                             pathology practices, ‘‘ancillary service                                                                      repay the cost of the donated items or
                                                                                                     health agencies. We sought comment on
                                             providers,’’ entities not listed in section                                                                   services if the quotas are not reached.
                                                                                                     the alternatives under consideration,
                                             101 of the MMA (directing the creation                                                                        Some commenters suggested that such
                                                                                                     including comments (with supporting
                                             of a safe harbor for certain donations of                                                                     quid pro quo donations, and donations
                                                                                                     reasons) regarding particular types of
                                             electronic prescribing items and                                                                              by laboratory companies generally, are
                                                                                                     providers or suppliers that should or
                                             services), or entities that are not part of                                                                   having a negative effect on competition
                                                                                                     should not be protected donors, given
                                             an accountable care organization or not                                                                       within the laboratory services industry
                                                                                                     the goals of the safe harbor.
                                                                                                                                                           (including increased prices for
                                             integrated in a meaningful manner.                         Many commenters raised concerns
                                                Response: We consider these                                                                                laboratory services) and impacting
                                                                                                     about donations of electronic health                  patient care as referral decisions are
                                             comments to be related to ‘‘protected                   records items and services by laboratory
                                             donors’’ and address them later in                                                                            being made based on whether a
                                                                                                     companies and strongly urged us to                    laboratory company donated electronic
                                             section II.D.1.                                         adopt our proposal to eliminate from the              health records items or services, not
                                             D. Additional Proposals and                             safe harbor protection for such                       whether that company offers the best
                                             Considerations                                          donations, either by excluding                        quality services or turnaround time. A
                                                                                                     laboratory companies from the scope of                few commenters also raised concerns
                                             1. Protected Donors                                     protected donors (if we extend the                    that laboratory companies were
                                               As we discussed in the 2013 Proposed                  availability of the safe harbor), or by               targeting possible recipients based on
                                             Rule, while broad safe harbor protection                letting the safe harbor sunset altogether             the volume or value of their potential
                                             may significantly further the important                 (for more detailed discussion of                      referrals.
                                             public policy goal of promoting                         comments concerning the sunset                           Response: The current safe harbor
                                             electronic health records, we continue                  provision, please see section II.C. of this           provision at 42 CFR 1001.952(y)(5)
                                             to have concerns, which we originally                   final rule). Other commenters raised                  prohibits determining the eligibility of a
                                             articulated in the 2006 Final Rule, about               similar concerns, but did not suggest a               recipient or the amount or nature of the
                                             the potential for fraud and abuse by                    particular approach to address them. We               items or services to be donated in a
                                             certain donors. 78 FR 21314, 21318                      summarize the relevant comments and                   manner that directly takes into account
                                             (Apr. 10, 2013). We also noted that we                  provide our responses below. We have                  the volume or value of referrals or other
                                             had received comments suggesting that                   carefully considered the comments that                business generated between the parties.
                                             abusive donations are being made under                  we received on this proposal and, based               Accordingly, the quid pro quo
                                             the electronic health records safe                      on the concerns articulated by                        arrangements and targeted donations
                                             harbor. Id.                                             commenters and the wide-ranging                       described by the commenters would not
                                               In order to address these concerns, we                support from the entire spectrum of the               qualify for safe harbor protection. Such
                                             proposed to limit the scope of protected                laboratory industry (from small,                      arrangements are not consistent with the
                                             donors under the electronic health                      pathologist-owned laboratory                          purpose of the safe harbor and can
sroberts on DSK5SPTVN1PROD with RULES




                                             records safe harbor. In the 2013                        companies to a national laboratory trade              result in the precise types of harm the
                                             Proposed Rule, we stated that we were                   association that represents the                       anti-kickback statute is designed to
                                             considering revising the safe harbor to                 industry’s largest laboratory companies),             prevent, such as corruption of medical
                                             cover only the MMA-mandated donors                      we are finalizing our proposal to remove              decision making. We urge those with
                                             we originally proposed when the safe                    laboratory companies from the scope of                information about such arrangements to
                                             harbor was first established: hospitals,                protected donors under the safe harbor.               contact our fraud hotline at 1–800–


                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00008   Fmt 4701   Sfmt 4700   E:\FR\FM\27DER2.SGM   27DER2
                                                              Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations                                       79209

                                             HHS–TIPS or visit https://                              vendors on the selection of electronic                health record vendors are encouraging
                                             forms.oig.hhs.gov/hotlineoperations/ to                 health records technology by providers                physicians to seek or demand donations
                                             report fraud.                                           and suppliers. We stated in the 2006                  from laboratory companies, and that
                                                We appreciate the commenters                         Final Rule that, although physicians and              physicians are threatening to withhold
                                             sharing their concerns about                            other recipients remain free to choose                referrals or send laboratory business
                                             arrangements involving laboratory                       any electronic health record technology               elsewhere if donations are not made.
                                             company donations. As previously                        that suits their needs, we do not require             According to one commenter, because
                                             discussed, we have decided to exclude                   donors to facilitate that choice for                  physicians are not paying for a
                                             laboratory companies from the scope of                  purposes of the safe harbor. However,                 significant portion of the cost of these
                                             protected donors. We believe that our                   donors must offer interoperable                       items and services, electronic health
                                             decision will continue to support the                   products and must not impede the                      record technology vendors are able to
                                             Department’s electronic health record                   interoperability of any electronic health             charge high prices and the size of
                                             adoption policies, while addressing the                 record software they decide to offer. 71              donations (in dollars) in recent years
                                             risk of fraud and abuse. By excluding                   FR 45110, 45128–9 (Aug. 8, 2006).                     has increased exponentially. The
                                             laboratory companies from the scope of                  Agreements between a donor and a                      commenter also suggested that vendors
                                             protected donors, parties to such                       vendor that preclude or limit the ability             may be manipulating pricing to
                                             donations will not be able to assert safe               of competitors to interface with the                  maximize the amount a laboratory
                                             harbor protection for such                              donated software would cause the                      company pays for donated items and
                                             arrangements. The effect will be a                      donation to fail to meet the condition at             services while minimizing or
                                             reduction in the risk that parties will                 42 CFR 1001.952(y)(3), and thus                       eliminating any physician
                                             enter into arrangements like the quid                   preclude protection under the electronic              responsibility. Another commenter
                                             pro quo and targeted donation                           health records safe harbor.                           raised a related concern that electronic
                                             arrangements described by the                              Comment: Many commenters noted                     health records technology vendors have
                                             commenters.                                             that several States—including Missouri,               increased the costs of their products
                                                Comment: Several commenters raised                   New Jersey, New York, Pennsylvania,                   because they know that laboratory
                                             concerns about laboratory company                       Tennessee, Washington, and West                       companies are paying for them.
                                             arrangements with electronic health                     Virginia—have prohibited or restricted                Generally, commenters raising concerns
                                             record technology vendors. The                          donations of electronic health record                 about the conduct of electronic health
                                             commenters described arrangements                       technology by laboratory companies to                 record technology vendors and
                                             involving laboratory companies and                      address fraud and abuse concerns. Some                physicians recommended that we
                                             vendors that result in the vendor                       of the commenters urged us to effectuate              remove safe harbor protection for
                                             charging other laboratory companies                     a similar prohibition or restriction by               laboratory company donations.
                                             high fees to interface with the donated                 removing safe harbor protection from                     One commenter asserted that
                                             technology or prohibiting other                         laboratory company donations. One of                  electronic health records items and
                                             laboratory companies from purchasing                    these commenters, referencing an earlier              services are no longer being chosen by
                                             the technology for donation to their own                discussion of ‘‘the need for [electronic              physicians based on which system is
                                             clients. One of the commenters also                     health record technology] subsidies to                most appropriate, but rather based on
                                             raised the concern that volume discount                 compete for business,’’ went on to state              which will produce the largest
                                             arrangements between laboratory                         that ‘‘[laboratory companies] that are                donation. Another commenter claimed
                                             companies and vendors of electronic                     licensed in states that strictly prohibit             that many physicians will change
                                             health record technology are resulting in               [laboratory companies] from donating                  laboratory companies and seek a new
                                             donations of electronic health record                   all or part of the costs of [electronic               donation once an existing donor
                                             technology that may not best suit the                   health record technology] to referring                laboratory company ceases to subsidize
                                             needs of the recipient. The commenter                   physicians are put at a considerable                  the physicians’ electronic health records
                                             asserted that donor laboratory                          disadvantage in the marketplace.’’                    items and services costs. This
                                             companies are pushing a particular                         Response: We appreciate the                        commenter stated that such conversions
                                             vendor’s specific electronic health                     commenters providing this information                 are not only inefficient, but undermine
                                             record system onto recipients because of                and we believe that our determination                 the spirit of the regulatory requirement
                                             a donor’s close business relationship                   to exclude laboratory companies from                  that recipients do not possess the same
                                             with the vendor.                                        the scope of protected donors will                    or equivalent items or services as those
                                                Response: Excluding potential                        address the fraud and abuse concerns                  being donated.
                                             competitors of the donors from                          the commenters referenced. With                          Response: Our proposed modification
                                             interfacing with the donated items or                   respect to the commenter’s concern                    related to the scope of protected donors
                                             services described by the commenters                    about being disadvantaged, we note that               and, thus, the focus of our discussion in
                                             can result in data and referral lock-in.                our decision to remove laboratory                     the 2013 Proposed Rule was on donor
                                             We discuss the issue of lock-in                         companies from the scope of protected                 conduct. Some of the comments we
                                             elsewhere in this final rule in more                    donors under the electronic health                    describe in this final rule also raise
                                             detail. We believe that our                             records safe harbor applies equally to all            concerns about the conduct of
                                             determination to exclude laboratory                     laboratory companies, regardless of their             recipients. We are clarifying that we do
                                             companies from the scope of protected                   location.                                             not believe that problematic donations
                                             donors will help address the data and                      Comment: Several commenters,                       involving laboratory companies are
                                             referral lock-in risks posed by                         including a national laboratory trade                 solely the result of questionable conduct
                                             arrangements such as those described by                 association that represents the
sroberts on DSK5SPTVN1PROD with RULES




                                                                                                                                                           by laboratory companies. Our decision
                                             the commenters. We also believe that                    industry’s largest laboratory companies,              to exclude laboratory companies from
                                             the changes we are finalizing to the                    took exception to what it perceived as                the scope of protected donors is the best
                                             scope of protected donors will help                     a characterization that laboratory                    way to reduce the risk of misuse of
                                             address the commenter’s concern about                   companies are solely responsible for                  donations by both donors and recipients
                                             the negative impact of relationships                    problematic donations. Some of these                  and address the concerns identified by
                                             between laboratory companies and                        commenters asserted that electronic                   the commenters.


                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00009   Fmt 4701   Sfmt 4700   E:\FR\FM\27DER2.SGM   27DER2
                                             79210            Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations

                                                The safe harbor at 42 CFR                            not closely analogous to facsimile                    scope of protected donors applied to
                                             1001.952(y)(4) contains a condition that                machines.                                             suppliers of both anatomic and clinical
                                             prohibits the donation recipient, the                      Response: We appreciate the                        pathology services, and suggested that
                                             recipient’s practice, or any affiliated                 information provided by the                           our proposal should apply to both.
                                             individual or entity, from making the                   commenters. We take this opportunity                  Commenters also inquired about the
                                             receipt, amount or nature of the donated                to note that our decision to exclude                  application of this proposal to hospitals
                                             items or services a condition of doing                  laboratory companies from the scope of                that operate laboratory companies for
                                             business with the donor. This condition                 protected donors under the safe harbor                non-hospital affiliated customers.
                                             recognizes the risk of fraud and abuse                  does not affect our position concerning               Raising concerns about an uneven
                                             posed by a potential recipient                          the provision of free access to certain               playing field, some of these commenters
                                             demanding a donation in exchange for                    limited-use interfaces. We have long                  urged us to exclude such hospitals from
                                             referrals. This type of quid pro quo                    distinguished between free items and                  the scope of protected donors if we
                                             arrangement is no less troubling than                   services that are integrally related to the           determined to exclude laboratory
                                             quid pro quo arrangements that                          offering provider’s or supplier’s services            companies. One commenter suggested
                                             originate with the donor and would not                  and those that are not. For instance, we              that we effectuate this limitation by
                                             be subject to safe harbor protection.                   have stated that a free computer                      restricting protected hospital donations
                                             Whether a quid pro quo donation is for                  provided to a physician by a laboratory               to those made to the hospital’s
                                             an initial installation of a donated item               company would have no independent                     employed physicians and the hospital’s
                                             or service or a conversion to a different               value to the physician if the computer                wholly-owned physician practices.
                                             donated item or service would not                       could be used only, for example, to                      Response: Our proposal applied to
                                             change our analysis. Additionally, we                   print out test results produced by the                ‘‘laboratory companies’’ and did not
                                             caution those engaging in conversion                    laboratory company. In contrast, a free               distinguish between those that provide
                                             arrangements to be mindful of the                       personal computer that the physician                  anatomic pathology services and those
                                             limitations in the safe harbor at 42 CFR                could use for a variety of purposes                   that provide clinical pathology services.
                                             1001.952(y)(7) concerning the donation                  would have independent value and                      We intend that references to ‘‘laboratory
                                             of equivalent items or services.                        could constitute an illegal inducement.               company’’ or ‘‘laboratory companies’’
                                                Comment: Several commenters                          56 FR 35952, 35978 (July 29, 1991)                    include entities that furnish either type
                                             suggested that laboratory companies                     (preamble to the 1991 safe harbor                     of service. With respect to the
                                             should be prohibited from making                        regulations). The donation of free access             commenters’ suggestion to limit or
                                             donations to physicians or that                         to an interface used only to transmit                 prohibit hospital donations, we
                                             physicians should pay for their own                     orders for the donor’s services to the                appreciate the commenters’ concerns,
                                             electronic health records technology.                   donor and to receive the results of those             but are not adopting their suggestion at
                                             Other commenters asserted that                          services from the donor would be                      this time. We continue to believe that
                                             laboratory companies do not share an                    integrally related to the donor’s services.           hospitals have a substantial and central
                                             essential interest in their referring                   As such, the free access would have no                stake in patients’ electronic health
                                             clients having electronic health records                independent value to the recipient apart              records. Further, the types and
                                             technology. Still other commenters                      from the services the donor provides                  prevalence of the concerns that have
                                             stated simply that laboratory companies                 and, therefore, would not implicate the               been brought to our attention and
                                             represent a high risk of fraud and abuse.               anti-kickback statute. See, e.g., OIG Ad.             discussed elsewhere in this final rule in
                                                Response: We are excluding                           Op. 12–20 (2012). Accordingly, safe                   the context of laboratory company
                                             laboratories from the scope of protected                harbor protection for such donations                  donations have not arisen, to our
                                             donors.                                                 would not be necessary.                               knowledge, in the hospital-donation
                                                Comment: A few commenters noted                         We disagree with the commenter that                context.
                                             that laboratory companies typically use                 asserted that interfaces are not                         We are clarifying that if a hospital
                                             a laboratory information system (LIS),                  sufficiently analogous to facsimile                   furnishes laboratory services through a
                                             anatomic pathologist information                        machines. We believe that a limited-use               laboratory that is a department of the
                                             system and/or blood banking system to                   interface (as described in the preceding              hospital for Medicare purposes
                                             store and share patients’ laboratory                    paragraph) is the contemporary analog                 (including cost reporting) and that bills
                                             results, and that these systems should                  to the limited-use computer described                 for the services through the hospital’s
                                             not be confused with an electronic                      in the example from the 1991 preamble                 provider number, then the hospital
                                             health record that includes a patient’s                 to the safe harbor regulations. A                     would not be considered a ‘‘laboratory
                                             full medical record composed of                         similarly limited-use facsimile machine               company’’ for purposes of this safe
                                             information from many medical                           would not materially differ from the                  harbor and would continue to qualify as
                                             specialties, including pathology. One of                limited-use computer and, thus, would                 a protected donor under the modified
                                             these commenters asserted that                          be analogous to the access to the                     safe harbor. However, if a hospital-
                                             laboratories already bear the cost of                   limited-use interface. It is the lack of              affiliated or hospital-owned company
                                             establishing LIS interfaces that they                   independent value to the recipient that               with its own supplier number furnishes
                                             provide in order to exchange laboratory                 takes the donation outside the scope of               laboratory services that are billed using
                                             services data electronically, and that                  the anti-kickback statute’s prohibition,              a billing number assigned to the
                                             clinical and anatomic laboratories could                not the mode of technology. Finally, in               company and not the hospital, the
                                             continue to do so legally even if they                  the circumstances presented above, the                company would be considered a
                                             were no longer protected donors under                   free access to a limited-use interface                ‘‘laboratory company’’ for purposes of
                                             the safe harbor. One commenter
sroberts on DSK5SPTVN1PROD with RULES




                                                                                                     would not require safe harbor                         this safe harbor and would no longer
                                             expressed concern about the costs                       protection, and thus the costs of the                 qualify as a protected donor. The ability
                                             associated with interfaces, other                       interface are outside the scope of this               of the affiliated hospital to avail itself of
                                             commenters asked us to clarify our                      rulemaking.                                           the safe harbor would be unaffected. We
                                             position on the donation of interfaces by                  Comment: Several commenters                        remind readers that it is the substance,
                                             laboratory companies, and one                           inquired whether our proposal to                      not the form, of an arrangement that
                                             commenter stated that interfaces were                   remove laboratory companies from the                  governs under the anti-kickback statute.


                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00010   Fmt 4701   Sfmt 4700   E:\FR\FM\27DER2.SGM   27DER2
                                                              Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations                                       79211

                                             A donation purported to be by an                        eligibility of a recipient or the amount              protected donors will stymie innovation
                                             affiliate of a laboratory company could,                or nature of the items or services to be              and restrict learning from the
                                             depending on the facts and                              donated in a manner that directly takes               technology. Finally, some commenters
                                             circumstances, be attributed to the                     into account the volume or value of                   contended that laboratory companies
                                             affiliated laboratory company, and thus                 referrals or other business generated                 and other ancillary service providers
                                             not be subject to safe harbor protection.               between the parties. Whether safe                     and suppliers have a legitimate clinical
                                                Comment: One commenter requested                     harbor protection is afforded to the                  interest in donating electronic health
                                             that, if we finalize our proposal to                    types of arrangements described by the                record items and services, and that
                                             exclude laboratory companies from the                   commenter will depend on whether all                  many physician practices depend on it.
                                             scope of protected donors, we                           conditions of the safe harbor are                        Some commenters, while
                                             specifically clarify that ‘‘[laboratory                 satisfied.                                            acknowledging our concerns regarding
                                             companies] are prohibited from                             Comment: Two commenters raised                     abusive donation practices, suggested
                                             providing [ ] software to physicians                    issues regarding the type of                          alternative means to address the
                                             unless they comply with another one of                  remuneration permissible under the safe               concerns we articulated in the 2013
                                             the existing safe harbors.’’ The                        harbor at 42 CFR 1001.952(y). One                     Proposed Rule. These commenters
                                             commenter went on to cite examples of                   commenter characterized the safe harbor               variously recommended that we
                                             software leases and sales at fair market                in terms of allowing laboratory                       strengthen interoperation requirements,
                                             value.                                                  companies to donate funds to recipients               provide education materials, or adopt
                                                Response: We cannot make the                         to help them implement electronic                     enforcement policies to prevent abuses
                                             statement requested. Safe harbors set                   health records technology. Another                    rather than limiting the scope of
                                             forth specific conditions that, if met,                 commenter noted that some donations                   potential donors.
                                             assure the parties involved of not being                from laboratory companies have                           Response: We agree with many of the
                                             subject to any enforcement actions                      included hardware.                                    reasons articulated by the commenters
                                             under the anti-kickback statute, the                       Response: We remind stakeholders                   that support maintaining our current
                                             CMP provision for anti-kickback                         that the electronic health records safe               broad scope of protected donors. We
                                             violations, or the program exclusion                    harbor applies only to the donation of                recognize that limiting the scope of
                                             authority related to kickbacks for the                  nonmonetary remuneration (consisting                  potential donors could constrain the
                                             arrangement qualifying for the safe                     of items and services in the form of                  ability of many providers and suppliers
                                             harbor. However, safe harbor protection                 software or information technology and                to adopt electronic health record
                                             is afforded only to those arrangements                  training services) necessary and used                 technology. Other than with respect to
                                             that precisely meet all of the conditions               predominantly to create, maintain,                    laboratory companies, the scope of
                                             set forth in the safe harbor. The failure               transmit, or receive electronic health                protected donors will remain the same.
                                             of an arrangement to fit in a safe harbor               records. As stated in the preamble to the             We will continue to monitor and may,
                                             does not mean that the arrangement is                   2006 Final Rule, reimbursement for                    prior to 2021, reconsider in a future
                                             illegal. That an arrangement does not                   previously incurred expenses is not                   rulemaking the risk of fraud or abuse
                                             meet a safe harbor only means that the                  protected, as it poses a substantial risk             relating to the use of the safe harbor by
                                             arrangement must be evaluated on a                      of fraud and abuse. 71 FR 45110, 45134                other donors or categories of donors.
                                             case-by-case basis. Arrangements                        (Aug. 8, 2006). We also remind                           We appreciate the suggestions from
                                             regarding the lease or sale of software                 stakeholders that the safe harbor does                commenters regarding alternative means
                                             are outside the scope of this rulemaking.               not protect the donation of hardware.                 of addressing abusive donation
                                                Comment: One commenter shared its                                                                          practices. The purpose of safe harbors is
                                             concerns about a practice that it                       Scope of Protected Donors: Other                      to permit certain non-abusive
                                             described as ‘‘post donation in-                        Comments and Suggestions                              arrangements that, in the absence of the
                                             sourcing.’’ The commenter stated that it                   Although the majority of commenters                safe harbor, potentially would be
                                             is aware of situations in which                         recommended removing safe harbor                      prohibited by the anti-kickback statute.
                                             laboratory companies are donating to                    protection for donations by laboratory                Compliance with safe harbors is
                                             ordering physicians only to have those                  companies, including by excluding                     voluntary, and safe harbor protection is
                                             physicians in-source their laboratory                   laboratory companies from the scope of                afforded only to those arrangements that
                                             services shortly after the donation. The                protected donors, some commenters had                 precisely meet all of the conditions set
                                             commenter suggested that ‘‘[t]he                        alternate or additional                               forth in the safe harbor. Thus, any
                                             donation enables [ ] ordering physicians                recommendations.                                      individual or entity engaging in an
                                             to avoid bearing the full cost of the                      Comment: A number of commenters                    arrangement that does not meet all
                                             [electronic health records items and                    recommended that we maintain our                      conditions of the safe harbor could be
                                             services] when they discontinue use of                  current scope of protected donors. Some               subject to an enforcement action unless
                                             an outside laboratory and bring the                     of these commenters stated that limiting              the arrangement otherwise complies
                                             specimen testing into their own in-                     the scope of protected donors could                   with the law. In response to the
                                             house self-referral arrangement just after              have an impact on specialists, who,                   suggestion that we provide additional
                                             receiving the donation.’’                               according to the commenters, still have               education materials, we would like to
                                                Response: The safe harbor does not                   relatively low rates of electronic health             highlight our efforts to educate the
                                             require the donation recipient to make                  records adoption. Along the same lines,               industry about compliance with the
                                             referrals to the donor. To the contrary,                one commenter stated that limiting the                anti-kickback statute and other fraud
                                             subparagraph (y)(4) prohibits the                       categories of donors that may seek                    and abuse laws generally. Our Web site
                                             donation recipient, the recipient’s                     protection under the safe harbor will                 (www.oig.hhs.gov) has a ‘‘Compliance’’
sroberts on DSK5SPTVN1PROD with RULES




                                             practice, or any affiliated individual or               negatively impact recipients by                       tab with many compliance-related
                                             entity, from making the receipt, amount                 preventing certain entities from helping              materials. These include Compliance
                                             or nature of the donated items or                       move the entire healthcare system                     Education for Physicians, Compliance
                                             services a condition of doing business                  towards more interoperable electronic                 Program Guidance documents for
                                             with the donor. Moreover, subparagraph                  health records systems. Others                        various segments of the industry
                                             (y)(5) prohibits determining the                        cautioned that restricting the scope of               (including hospitals, nursing facilities,


                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00011   Fmt 4701   Sfmt 4700   E:\FR\FM\27DER2.SGM   27DER2
                                             79212            Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations

                                             and others), Special Fraud Alerts,                      for safe harbor protection will hinge, in             to those that are arising in the laboratory
                                             advisory opinions, and more. We                         part, on whether the particular                       context. We have not heard the same
                                             believe that the information we include                 individual or entity making the                       concerns or received similar complaints
                                             in this final rule sufficiently sets forth              donation meets this standard. For                     about other categories of donors or types
                                             donors’ and recipients’ requirements                    example, a hospital (whether stand-                   of donation arrangements, and therefore
                                             under the safe harbor with respect to                   alone or within a health system) is an                believe it is premature to exclude
                                             donations. If an individual or entity                   entity that typically provides health care            potential donors (other than laboratory
                                             desires guidance about a specific                       services and submits claims or requests               companies). We also decline to identify
                                             arrangement involving the donation of                   for payment to Federal health care                    particular individuals or organizations
                                             electronic health records items or                      programs and, therefore, could be a                   in the regulation.
                                             services under the safe harbor, our                     protected donor under this safe harbor.                  Comment: A few commenters
                                             advisory opinion process remains                           Comment: Some commenters agreed                    recommended restricting the scope of
                                             available. Finally, we address the issue                with the option we presented in the                   protected donors under the safe harbor
                                             of interoperation requirements                          2013 Proposed Rule to retain the current              to those types listed in the MMA. These
                                             elsewhere in this final rule.                           scope of protected donors but exclude                 commenters also made suggestions
                                               Comment: We received a number of                      providers and suppliers of ancillary                  regarding how to restrict donations from
                                             comments requesting that we retain                      services associated with a high risk of               these limited categories of donors. For
                                             certain categories of providers and                     fraud and abuse. A few of these                       example, one commenter recommended
                                             suppliers within the scope of protected                 commenters suggested that taking a                    limiting the protected donors to
                                             donors under the safe harbor at 42 CFR                  targeted approach minimizes the risk of               hospitals and providers and suppliers
                                             1001.952(y). For example, commenters                    unintended consequences. One of these                 operating in an integrated setting and to
                                             that provide dialysis services                          commenters asserted that we should                    MA plans and providers and suppliers
                                             specifically requested that they remain                 exclude the particular individuals or                 under contract with them. Another
                                             protected donors. One of the dialysis                   entities that have been the subject of                commenter suggested limiting the
                                             provider commenters noted that                          complaints. Another of these                          application of the safe harbor to a
                                             excluding this specialty would have a                   commenters specifically recommended                   similar integrated model, and to
                                             chilling effect on the development and                  that we target categories of providers                hospitals that donate to their employed
                                             availability of the specialized electronic              and suppliers with a history or pattern               physicians and the physician groups
                                             health records systems used by                          of abusive behavior. Other commenters                 that they own. In contrast, one
                                             nephrologists. A few commenters                         variously recommended excluding                       commenter suggested that limiting the
                                             requested that we continue to include                   laboratory companies, DME suppliers,                  protected donor types to the original
                                             hospitals and health systems as                         home health agencies, or safety-net                   MMA list is too restrictive because some
                                             protected donors in order for them to                   providers from the scope of protected                 provider and supplier types not listed in
                                             retain the ability to assist physicians in              donors. One commenter asserted that                   the MMA (e.g., ambulatory surgical
                                             adopting electronic health records                      entities like laboratory companies and                centers that now perform many
                                             technology. Other commenters                            DME suppliers do not have an                          procedures previously performed only
                                             requested that we explicitly retain home                overarching and essential interest in                 in hospitals) should have the
                                             health agencies as protected donors. In                 having physicians use electronic health               opportunity to make donations.
                                             support of retaining home health                        records, nor do they coordinate a                        Response: We agree that providers
                                             agencies, one commenter stated that the                 patient’s care. In contrast, one                      and suppliers operating in an integrated
                                             depth, breadth, and frequency of                        commenter objected to singling out a                  environment need interoperable
                                             communications between home health                      provider or supplier type to exclude                  electronic health records. However, we
                                             agencies and other direct care providers                from the scope of protected donors. This              do not believe that the need for this
                                             makes the use of interoperable                          commenter stated that such an action                  technology is limited to individuals and
                                             electronic health record technology                     unjustly (1) penalizes a whole category               entities in an integrated care setting.
                                             essential to improving clinical outcomes                of providers or suppliers when most, in               Patients may receive care from
                                             and financial efficiencies. We also                     the commenter’s assessment, are law-                  providers and suppliers that are not in
                                             received comments in support of                         abiding, and (2) supports other                       the same integrated system, and the
                                             retaining safety-net providers and                      providers or suppliers that may have                  patient’s medical records need to be
                                             pharmacies as protected donors.                         similar motivations.                                  shared with those providers and
                                               Response: We agree generally with the                    Response: We respond earlier to the                suppliers who care for a patient. The
                                             thrust of these comments. We recognize                  commenters who recommended                            Department’s goal continues to be
                                             the value of permitting individuals and                 removing only laboratory companies                    fostering broad adoption of
                                             entities that participate directly in the               from the scope of protected donors.                   interoperable electronic health records
                                             provision of health care to patients and                With respect to the other comments, we                technology. At this time, we believe that
                                             that have a need to coordinate with care                note that, in the 2013 Proposed Rule, we              excluding laboratory companies from
                                             providers and suppliers to donate                       specifically requested comments with                  the scope of protected donors, rather
                                             electronic health record items or                       supporting reasons regarding whether                  than limiting the scope to the original
                                             services to facilitate those interactions.              particular provider or supplier types                 MMA list of donors (or some other
                                             Based on the information we have                        should not be protected. 78 FR 21314,                 subset of protected donors) strikes the
                                             available at this time, we intend to                    21318 (Apr. 10, 2013). Some                           right balance between furthering that
                                             continue to protect donors, other than                  commenters generally suggested that we                goal and preventing fraud and abuse.
sroberts on DSK5SPTVN1PROD with RULES




                                             laboratory companies, that provide                      remove additional provider or supplier
                                             patients with health care items or                      types from the scope of protected                     2. Data Lock-In and Exchange
                                             services covered by a Federal health                    donors, but their comments did not                       We solicited comments on what new
                                             care program and submit claims or                       provide specific examples of abusive                  or modified conditions could be added
                                             requests for payment to those programs                  practices with respect to donations by                to the electronic health records safe
                                             directly or through reassignment. Thus,                 other donors, nor did the comments                    harbor to achieve the two goals of (1)
                                             whether a particular donation is eligible               contain indicia of problems comparable                preventing misuse of the safe harbor


                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00012   Fmt 4701   Sfmt 4700   E:\FR\FM\27DER2.SGM   27DER2
                                                              Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations                                       79213

                                             that results in data and referral lock-in               that donated items or services are                    donations would be suspect under the
                                             and (2) encouraging the free exchange of                capable of interoperation, but that                   law as they would appear to be
                                             data (in accordance with protections for                recipients implicitly agree to send                   motivated, at least in part, by a purpose
                                             privacy). Additionally, we requested                    referrals only to the donor. These                    of securing Federal health care program
                                             comments on whether those conditions,                   commenters did not provide specific                   business. For example, arrangements in
                                             if any, should be in addition to, or in                 recommendations to modify the data                    which a donor takes an action to limit
                                             lieu of, our proposal to limit the scope                lock-in conditions of the safe harbor, but            the use, communication, or
                                             of protected donors. We also solicited                  generally supported our efforts to                    interoperability of donated items or
                                             comments on possible modifications to                   prevent data lock-in.                                 services by entering into an agreement
                                             42 CFR 1001.952(y)(3), which is a                          Two commenters representing                        with a recipient to preclude or inhibit
                                             condition of the safe harbor requiring                  laboratory companies expressed specific               any competitor from interfacing with
                                             that ‘‘[t]he donor (or any person on the                concerns about a feature of donated                   the donated items or services would not
                                             donor’s behalf) does not take any action                software that may lead to data lock-in.               satisfy the requirement of 42 CFR
                                             to limit or restrict the use, compatibility,            They explained that some software is                  1001.952(y)(3). Other donation
                                             or interoperability of the items or                     designed to limit the accessibility of                arrangements described by the
                                             services with other electronic                          data that is received from an electronic              commenters in which electronic health
                                             prescribing or electronic health records                health records system that is different               records technology vendors agree with
                                             systems.’’                                              than the donated software. Most often,                donors to charge high interface fees to
                                                                                                     data sent from the non-donated                        non-recipient providers or suppliers or
                                             Data Lock-In: Comments on Current                       electronic health records system cannot               to competitors may also fail to satisfy
                                             Conditions                                              populate automatically in a patient’s                 the conditions of 42 CFR 1001.952(y)(3).
                                                Comment: Many commenters asserted                    electronic health record or other limits              We believe that any action taken by a
                                             that the current conditions of the safe                 are placed on the portability of data sent            donor (or any person on behalf of the
                                             harbor provide adequate safeguards to                   from the non-donated electronic health                donor, including the electronic health
                                             prevent donations that result in data or                records system. According to these                    record vendor or the recipient) to limit
                                             referral lock-in between the donor and                  commenters, the limited accessibility of              the use of the donated items or services
                                             recipient. These commenters expressed                   the data makes it harder for the                      by charging fees to deter non-recipient
                                             general support for enforcement when                    recipient to access and use it for clinical           providers and suppliers and the donor’s
                                             arrangements do not comply with the                     purposes. As a result, a physician or                 competitors from interfacing with the
                                             conditions of the safe harbor. Several of               other recipient is more likely to use only            donated items or services would pose
                                             these commenters were also concerned                    the donor’s services to make sure that                legitimate concerns that parties were
                                             that adding or modifying conditions of                  necessary data is easily accessible.                  improperly locking-in data and referrals
                                             the safe harbor may increase the burden                 These commenters asserted that there                  and that the arrangement in question
                                             of compliance and, therefore, lead to                   are no technical solutions to reducing                would not qualify for safe harbor
                                             fewer entities willing to make                          the possibility of data lock-in; rather,              protection.
                                             appropriate donations.                                  the only solution is to remove laboratory                However, whether a donation actually
                                                Response: We are not persuaded to                    companies from the scope of protected                 satisfies the conditions of the safe
                                             adopt significant new requirements or                   donors.                                               harbor depends on the specific facts of
                                             modifications to the safe harbor to                        Several other commenters endorsed                  each donation arrangement. We
                                             address the issue of data and referral                  generally our efforts to prevent referral             encourage the reporting of instances of
                                             lock-in at this time. However, as                       and data lock-in. These commenters                    data lock-in, as we believe that
                                             described below, we are making limited                  evidenced strong support of the free                  investigation may establish that where
                                             clarifications to current conditions to                 exchange of health information across                 such lock-in has occurred, existing
                                             reflect our intended meaning.                           different provider and supplier types to              conditions of the safe harbor have not
                                                We remain committed to investigating                 better coordinate care for patients.                  been met. Moreover, any action taken to
                                             potentially abusive arrangements that                   However, apart from supporting our                    achieve such a result could be evidence
                                             purport to meet the conditions of the                   efforts to ensure that electronic health              of intent to violate the anti-kickback
                                             safe harbor, but, in fact, do not.                      records systems are interoperable, the                statute. In regard to the specific
                                             Donations that do not meet the                          commenters made no specific                           recommendation to remove laboratories
                                             conditions of the safe harbor—because                   recommendations regarding                             from the scope of protected donors, we
                                             they are used to lock in referrals—are                  modifications to the exception.                       note that we are excluding laboratory
                                             suspect under the law.                                     Response: We share the commenters’                 companies from the scope of protected
                                                Comment: Several commenters                          concerns about the interoperability of                donors as discussed earlier in this final
                                             expressed concerns about donations that                 donated software. While any definitive                rule.
                                             lead to data lock-in. As described                      conclusion regarding the existence of an
                                             elsewhere in this final rule, some                      anti-kickback violation requires a case-              Data Lock-In: Recommendations
                                             commenters suggested that, although                     by-case determination of the parties’                 Outside the Scope of the Rulemaking
                                             some donated items or services have the                 intent, we note that donations of items                  Comment: One commenter expressed
                                             ability to be interoperable, vendors may                or services that have limited or                      concern regarding data lock-in and
                                             charge providers and suppliers who do                   restricted interoperability due to action             supported ensuring that donations are
                                             not use the same donated software high                  taken by the donor or by any person on                transparent and free of any attempts to
                                             fees to interface with it. The                          the donor’s behalf (which could include               steer future business. Although the
                                             commenters contended that these                         the recipient acting on the donor’s                   commenter denied knowledge of any
sroberts on DSK5SPTVN1PROD with RULES




                                             business practices result in electronic                 behalf) would fail to meet the condition              specific abuse of the safe harbor, the
                                             health records software that is not                     at 42 CFR 1001.952(y)(3) and is                       commenter requested that we allow
                                             practically interoperable because non-                  inconsistent with the intent of the safe              individuals or entities to remedy a
                                             donor providers and suppliers cannot                    harbor to promote the use of technology               donation that may not be protected by
                                             afford to connect to it. Other                          that is able to communicate with                      the safe harbor. The commenter
                                             commenters expressed general concerns                   products from other vendors. Resulting                suggested that the remedy for failure to


                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00013   Fmt 4701   Sfmt 4700   E:\FR\FM\27DER2.SGM   27DER2
                                             79214            Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations

                                             satisfy the conditions of the safe harbor                  Further, we note that the Department               the safe harbor. A representative of
                                             as modified by this final rule should be                is considering a number of policies to                several health plans suggested
                                             to make recipients pay the fair market                  accelerate and advance interoperability               modifying the safe harbor conditions to
                                             value of any costs for ongoing support                  and health information exchange. As                   ensure that, in the context of health
                                             of the donated items or services and                    part of this process, ONC and CMS                     information exchange, the
                                             provide 3 years for the recipient to                    requested input from the public on                    interoperability condition requires that
                                             either pay full value for the donation or               possible policies and programmatic                    all key stakeholders, including health
                                             make a transition to a new system.                      changes to accelerate electronic health               insurance plans, have access to the
                                                Response: We appreciate the                          information exchange among                            health information exchange. The
                                             commenter’s concern and                                 individuals and entities that furnish                 commenter suggested that we modify
                                             recommendation; however we decline                      health care items and services, as well               the interoperability condition at 42 CFR
                                             to make the suggested modification.                     as new ideas that would be both                       1001.952(y)(2) to prohibit restrictions on
                                             Even if we were inclined to do so,                      effective and feasible to implement. 78               the communication and exchange of
                                             implementing the commenter’s                            FR 14793, 14794 (Mar. 7, 2013). We                    data with any ‘‘covered entity’’ as
                                             suggestions would be outside the scope                  believe that the process initiated by                 defined 45 CFR 160.103.
                                             of this rulemaking.                                     ONC and CMS is better suited than this                   Response: The current language in the
                                             Data Lock-in: Recommendations for                       anti-kickback statute safe harbor to                  regulatory text prohibits donors (or
                                             Additions or Modifications to the Safe                  consider and respond to evolving                      persons on the donor’s behalf) from
                                             Harbor Conditions                                       functionality related to the                          taking any action to limit or restrict the
                                                                                                     interoperability of electronic health                 use, compatibility, or interoperability of
                                                Comment: A few commenters urged                      record technology.3
                                             us to amend the safe harbor to require                                                                        donated items or services with other
                                                                                                        Comment: In response to our
                                             that the recipient or the donor                                                                               ‘‘electronic prescribing or electronic
                                                                                                     solicitation of comments, some
                                             participate in actual health information                                                                      health records systems.’’ The term
                                                                                                     commenters provided suggestions as to
                                             exchange with an electronic health                                                                            ‘‘electronic prescribing or electronic
                                                                                                     how we could broaden the current safe
                                             records system that is different from the                                                                     health records systems’’ was intended to
                                                                                                     harbor conditions related to data lock-
                                             donated item. One commenter                                                                                   be broad in order to account for
                                                                                                     in. Two commenters suggested
                                             specifically suggested that the recipient                                                                     developments in the health information
                                                                                                     broadening 42 CFR 1001.952(y)(3),
                                             should have to demonstrate exchange                                                                           technology industry. Based on the
                                                                                                     which imposes the condition that the
                                             with at least one other electronic health               donor (or any person on the donor’s                   commenters’ suggestions it appears,
                                             record system within a certain time                     behalf) does not take any action to limit             however, that some have read this term
                                             frame after receipt of the donation.                    or restrict the use, compatibility, or                more narrowly. This narrow reading is
                                             Another commenter suggested that the                    interoperability of the items or services             inconsistent with our intended
                                             donor should have to—upon request—                      with other electronic prescribing or                  meaning. We have always believed and
                                             enable the donation recipients to engage                electronic health records systems.                    continue to believe that an action taken
                                             in bi-directional exchange of data with                 Specifically, one of the commenters                   by a donor (or on behalf of the donor)
                                             competitors not using the same                          suggested that we replace the reference               that limits the use, compatibility, or
                                             electronic health record system.                        to ‘‘electronic prescribing or electronic             interoperability of donated items or
                                                Response: We appreciate the                          health records systems’’ with ‘‘health                services with any other health
                                             commenters’ recommendations;                            information technology platforms or                   information technology may impede the
                                             however, we are not modifying the                       other health care providers.’’ The                    free exchange of data and limit the
                                             conditions of the safe harbor that                      commenters asserted that this proposed                ability of providers and suppliers to
                                             require the parties to a donation                       change reflects the development of                    coordinate care, which is inconsistent
                                             arrangement to demonstrate                              health information technology that may                with one of the goals of the safe harbor.
                                             interoperation. We question whether                     not be classified as an electronic health             Therefore, we are clarifying 42 CFR
                                             adequate demonstration of                               record system, but supports the free                  1001.952(y)(3) by adding a parenthetical
                                             interoperation could occur only after the               exchange of health information. These                 that includes a non-exhaustive list of
                                             donation has been made, which would                     two commenters also suggested that we                 some of the forms of technologies we
                                             create uncertainty about whether the                    modify the condition at 42 CFR                        believe are included within the meaning
                                             donation meets the conditions for                       1001.952(y)(3) to state that neither the              of the current regulatory language. We
                                             protection under the safe harbor at the                 donor nor the recipient may take any                  are not adopting the commenters’
                                             time of the donation. This uncertainty                  action to limit the interoperability of               suggested edit as we do not believe that
                                             would undermine the Department’s goal                   donated items or services and require                 it is necessary in light of the
                                             to support widespread adoption of                       that the modified condition be included               clarification we have made. We also
                                             interoperable electronic health record                  as part of the written agreement                      decline to modify 42 CFR 1001.952(y)(2)
                                             technology. It is our intent and                        condition at 42 CFR 1001.952(y)(6).                   to prohibit restrictions on the
                                             expectation that interoperation will, in                   Another commenter suggested                        communication and exchange of data
                                             fact, occur, and we believe the safe                    amending 42 CFR 1001.952(y)(3) by                     with any covered entity as defined at 45
                                             harbor conditions, in their entirety,                   providing a non-exhaustive list of                    CFR 160.103. We believe that the
                                             promote such interoperation. Moreover,                  actions that would cause a donation not               existing condition at 42 CFR
                                             routine interoperation with systems                     to satisfy this condition and by                      1001.952(y)(3), which we have clarified
                                             other than those of the donor may be                    establishing a process for entities to                in this final rule as including health
                                             evidence that neither the donor nor any                                                                       information technology applications,
sroberts on DSK5SPTVN1PROD with RULES




                                                                                                     provide the Department with
                                             person on the donor’s behalf has taken                  information about potential abuses of                 products, or services, promotes
                                             any action to limit or restrict the use,                                                                      interoperability with a variety of
                                             compatibility, or interoperability of the                  3 ONC and CMS have subsequently published a
                                                                                                                                                           providers and suppliers, as well as other
                                             items or services with other electronic                 ‘‘Strategy and Principles to Accelerate HIE’’         health care entities that may play a role
                                                                                                     document.http://www.healthit.gov/policy-
                                             prescribing or electronic health records                researchers-implementers/accelerating-health-         in the coordination of care, including
                                             systems. See 42 CFR 1001.952(y)(3).                     information-exchange-hie.                             health plans that operate health


                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00014   Fmt 4701   Sfmt 4700   E:\FR\FM\27DER2.SGM   27DER2
                                                              Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations                                        79215

                                             information technology applications,                    privacy and security rules, liability                 determined by ONC and are, therefore,
                                             products, or services.                                  issues, licensing requirements, and anti-             outside the scope of this rulemaking.
                                                We are not adopting the commenters’                  trust issues. Further, according to the
                                             suggestion to modify the safe harbor to                                                                       3. Covered Technology
                                                                                                     commenter, data lock-in conditions may
                                             state that neither the donor nor the                    cause uncertainty for donors because                     In the 2013 Proposed Rule, we noted
                                             recipient may take any actions to limit                 parties may not be able to determine                  that ‘‘we received questions concerning
                                             the interoperability of the donated item                whether a donation met these                          whether certain items or services . . .
                                             or service. The condition at 42 CFR                     conditions until after donation.                      fall within the scope of covered
                                             1001.952(y)(3) requires the donor (or                      Response: Nothing in this final rule is            technology under the electronic health
                                             any person on behalf of the donor) to                   intended to prohibit legitimate actions               records safe harbor.’’ 78 FR 21314,
                                             refrain from taking any action that limits              taken to ensure that donated items and                21319 (Apr. 10, 2013). There, we stated
                                             or restricts the use, compatibility, or                 services appropriately protect data,                  that ‘‘[t]he answer to such questions
                                             interoperability of the donated items or                including measures to ensure the                      depends on the exact items or services
                                             services. To the extent that a recipient                privacy and security of health                        that are being donated.’’ Id. We
                                             takes an action on the donor’s behalf to                information data. We recognize that                   referenced the discussion of our
                                             limit the use, compatibility, or                        there may be appropriate security,                    interpretation of the term ‘‘software,
                                             interoperability of donated items or                    privacy, and other business reasons to                information technology and training
                                             services, that donation would fail to                   protect data. This final rule addresses               services necessary and used
                                             qualify for protection under the safe                   only actions that inappropriately lock in             predominantly’’ in the 2006 Final Rule.
                                             harbor. Because we see no obvious                       data, for example locking in data to                  Id. We stated that ‘‘[w]e believe that the
                                             reason for a recipient to take action to                secure future referrals.                              current regulatory text, when read in
                                             limit the use, compatibility, or                           Comment: One commenter expressed                   light of the preamble discussion, is
                                             interoperability of donated items or                    support for preventing electronic health              sufficiently clear concerning the scope
                                             services other than at a donor’s behest                 records data lock-in and the free                     of covered technology . . . .’’ Id.
                                             or as a condition of the donation, we                   exchange of data. However, the                        Nonetheless, because we have received
                                             believe that any action of this type by                 commenter did not agree that additional               suggestions from stakeholders to modify
                                             a recipient would be suspect. We are not                conditions designed to promote these                  the regulatory text of the electronic
                                             making the suggested modification                       goals would be effective. Instead, the                health records safe harbor to reflect
                                             because the concern articulated by the                  commenter suggested that CMS adopt                    explicitly this interpretation, we sought
                                             commenters is already addressed by the                  payment models that continue to foster                comments from the public regarding
                                             existing regulatory language and the                    care coordination activities.                         this issue. After considering the public
                                             policies we are adopting in this final                     Response: We appreciate the                        comments with respect to this issue, we
                                             rule. Because we are not adopting the                   commenter’s suggestion; however,                      determined not to make any changes to
                                             commenters’ suggestion, we are not                      changes to CMS payment models are                     the regulation text to address the scope
                                             making any corresponding revisions to                   outside the scope of this OIG                         of covered technology.
                                             require that the recommended provision                  rulemaking. We note that ONC and CMS                     Comment: Several commenters stated
                                             be incorporated into the written                        in their Request for Information                      that the regulatory text describing the
                                             agreement condition at 42 CFR                           solicited input on options for improving              scope of technology covered by the safe
                                             1001.952(y)(6).                                         several different CMS payment models                  harbor, when read in light of the 2006
                                                We are not implementing the                          to support better the adoption of                     Final Rule preamble, is sufficiently
                                             suggestion that we provide in regulation                interoperable electronic health record                clear. One of these commenters urged us
                                             text examples of actions that may cause                 technology. 78 FR 14793, 14797 (Mar. 7,               not to revise the regulation in any way
                                             a donation not to meet the condition of                 2013).                                                that might limit the scope of covered
                                             42 CFR 1001.952(y)(3). Whether a                           Comment: Two commenters suggested                  technology, limit the ability of donors
                                             donation meets the precise conditions of                data lock-in could be limited by                      and recipients in the design and
                                             the safe harbor requires a case-by-case                 requiring electronic health record                    selection of items and services, or create
                                             analysis and depends on the specific                    software to be open or ‘‘open source.’’               barriers to achieving interoperability.
                                             facts of the donation. We encourage the                 Both commenters asserted that open                    Other commenters agreed that the
                                             reporting of instances when the donor                   source software would limit data lock-                current definition of covered technology
                                             (or any other person on behalf of the                   in due to the transparent nature of open              is appropriate, with two of these
                                             donor) takes action to limit the                        source software. In addition, it would                commenters suggesting that we revisit
                                             interoperability of donated items or                    lead to greater interoperability of                   the definition in the future as health
                                             services, as we believe that investigation              electronic health record systems. One                 information technology evolves. Still
                                             may establish that, when such lock-in                   commenter also suggested that we                      other commenters asserted that the
                                             has occurred, existing conditions of the                require mandatory advance disclosure                  existing regulatory language can be
                                             safe harbor not have been met.                          of the operational and business policies              interpreted to include ‘‘services that
                                             Moreover, any action taken to achieve                   and practices associated with the                     enable the interoperable exchange of
                                             such a result could be evidence of intent               electronic health record technologies.                electronic health records data;’’ thus, no
                                             to violate the anti-kickback statute.                   One commenter suggested that we adopt                 revisions to the regulatory text are
                                                                                                     the e-DOS standard as certification                   required. In contrast, one commenter
                                             Data Lock-in: Other Comments and                        criteria for electronic health records.               suggested that we incorporate into the
                                             Suggestions                                                Response: We generally share the                   regulatory text the preamble language
                                                Comment: One commenter objected to                   commenters’ support for free exchange                 from the 2006 Final Rule where we
sroberts on DSK5SPTVN1PROD with RULES




                                             the use of the safe harbor to address the               of health information, provided that                  discussed examples of items and
                                             issue of data lock-in. The commenter                    there are appropriate protections for                 services that would qualify for coverage
                                             contended that data lock-in may arise in                privacy and security. However, we are                 under the safe harbor. Another
                                             response to legitimate concerns, such as                not adopting the commenters’                          commenter suggested that we revise the
                                             Health Insurance Portability and                        recommendations because software                      regulatory text to include as many
                                             Accountability Act of 1996 (HIPAA)                      certification criteria and standards are              examples of covered ‘‘software,


                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00015   Fmt 4701   Sfmt 4700   E:\FR\FM\27DER2.SGM   27DER2
                                             79216            Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations

                                             information technology and training                     interconnectivity services that are                   policy goals such as reducing hospital
                                             services’’ as possible while emphasizing                eligible for donation, would not be                   readmissions and coordinated care
                                             that the list is not exhaustive.                        protected if the recipient, the recipient’s           across settings outside of traditional
                                                Response: We agree that maintaining                  practice, or any affiliated individual or             office settings, including telemonitoring
                                             flexibility is important, particularly as               entity makes the receipt, amount or                   and telemedicine. Another commenter
                                             health information technology evolves.                  nature of the donated items or services               suggested that we expand the protection
                                             We endeavor to avoid revisions to the                   a condition of doing business with the                of the safe harbor to cover ‘‘any
                                             regulation text that could inadvertently                donor or if the donor determines the                  additional items or services that will be
                                             narrow the safe harbor, which is                        eligibility of a recipient or the amount              required or helpful in meeting Stage 2
                                             intended to promote the adoption of                     or nature of the items or services to be              or Stage 3 requirements for [the EHR
                                             interoperable electronic health record                  donated in a manner that directly takes               Incentive Programs].’’
                                             technology. Moreover, our                               into account the volume or value of                      Response: As stated previously,
                                             interpretation of what is covered by the                referrals or other business generated                 whether specific items or services fall
                                             safe harbor has not changed. As we                      between the parties. See 42 CFR                       within the scope of covered technology
                                             stated in the 2013 Proposed Rule,                       1001.952(y)(4) and (5).                               under the safe harbor depends on the
                                             whether specific items or services fall                    Comment: One commenter suggested                   exact items or services that are being
                                             within the scope of covered technology                  that, in addition to maintaining as much              donated. Some of the particular items
                                             under the safe harbor depends on the                    flexibility as possible, we broaden the               and services that may be included
                                             exact items or services that are being                                                                        within the broad categories identified by
                                                                                                     scope of the technology covered by the
                                             donated. 78 FR 21314, 21319 (Apr. 10,                                                                         the commenters may be eligible for
                                                                                                     safe harbor to include software and
                                             2013). If the ‘‘services that enable the                                                                      donation. For example, if a particular
                                                                                                     services used for care coordination,
                                             interoperable exchange of electronic                                                                          software product related to transitions
                                                                                                     quality measurement, improving
                                             health records data’’ are of the type that                                                                    of care was necessary and used
                                                                                                     population health, or improving the
                                             do not meet the requirements for                                                                              predominantly to create, maintain,
                                                                                                     quality or efficiency of health care
                                             covered technology (for example,                                                                              transmit, or receive electronic health
                                                                                                     delivery among parties. The commenter
                                             because they include hardware, storage                                                                        records, then it would be eligible for
                                                                                                     noted that some of these items may be
                                             devices, or have core functionality other                                                                     donation, provided that the donation
                                                                                                     covered by the waivers issued in
                                             than electronic health records), they                                                                         met all of the other safe harbor
                                                                                                     connection with the Medicare Shared                   conditions. As noted previously in this
                                             would not be eligible for protection
                                             under the safe harbor at 42 CFR                         Savings Program (MSSP); however,                      final rule, software is not required to be
                                             1001.952(y).                                            because those waivers extend only to                  certified to ONC certification criteria in
                                                For these reasons, we are not revising               parties participating in that program,                order to be donated under the electronic
                                             the regulation text at 42 CFR                           protection for the donation of items or               health records safe harbor. Thus,
                                             1001.952(y) to identify any specific                    services that advance the Department’s                software that is separate from certified
                                             types of items or services that may be                  goal of encouraging the adoption of                   software may still be eligible for
                                             donated if the other conditions of the                  health information technology that                    donation if it satisfies the definition of
                                             safe harbor are satisfied. We are also not              supports public policy objectives is not              ‘‘interoperable’’ in the Note to paragraph
                                             modifying the examples identified in                    available to other health care industry               (y) in 42 CFR 1001.952(y). To the extent
                                             the preamble discussion in the 2006                     stakeholders. To advance these goals in               that the commenters suggest that we
                                             Final Rule. 71 FR 45110, 45151–2 (Aug.                  a broader way, the commenter suggested                expand the scope of the safe harbor to
                                             8, 2006). The safe harbor continues to                  that the safe harbor be expanded to                   protect items or services that are not
                                             protect nonmonetary remuneration in                     include items potentially covered by the              already eligible for donation, we note
                                             the form of software, information                       MSSP pre-participation waiver, such as                that revision of the safe harbor to
                                             technology and training services                        electronic health information exchanges               include such items or services would be
                                             necessary and used predominantly to                     that allow for electronic data exchange               outside the scope of this rulemaking. In
                                             create, maintain, transmit, or receive                  across multiple platforms, data                       the 2013 Proposed Rule, with respect to
                                             electronic health records.                              reporting systems (including all-payer                the scope of technology potentially
                                                Comment: A few commenters                            claims data reporting systems), and data              covered by the safe harbor, we sought
                                             requested clarification regarding                       analytics (including staff and systems,               input from the public regarding the
                                             whether third-party fees related to the                 such as software tools, to perform                    singular issue of ‘‘whether the current
                                             exchange of health information, such as                 analytic functions). Another commenter                regulatory text, when read in light of the
                                             health information exchange (HIE)                       suggested that we broaden the scope of                preamble discussion, is sufficiently
                                             service charges for interconnectivity, are              technology covered by the safe harbor to              clear concerning the scope of covered
                                             ‘‘covered technologies’’ under the safe                 include software separate from the                    technology.’’ 78 FR 21314, 21319 (Apr.
                                             harbor.                                                 certified electronic health record                    10, 2013). With regard to whether the
                                                Response: The safe harbor protects                   software as long as it is interoperable               scope of the covered technology should
                                             only nonmonetary remuneration.                          with the electronic health record                     be broadened, as opposed to clarified,
                                             Whether particular items or services,                   software. The commenter gave as                       we are mindful of the important issues
                                             like interconnectivity services, can be                 examples of such electronic health-                   raised by the commenters and may
                                             donated under the safe harbor depends                   records-associated components ‘‘patient               consider them in the future. We further
                                             on the exact item or service that is being              portals that support patient engagement,              note that, depending on the
                                             donated and whether the item or service                 direct and other standards-compliant                  circumstances, some of the
                                             is: (1) In the form of software,                        means for secure patient information
sroberts on DSK5SPTVN1PROD with RULES




                                                                                                                                                           arrangements described by the
                                             information technology and training                     exchange between providers, solutions                 commenters may fit in other safe
                                             services; and (2) necessary and used                    to support transition care, and tools that            harbors or may not implicate the anti-
                                             predominantly to create, maintain,                      may assist in inter- and intra-patient                kickback statute.
                                             transmit, or receive electronic health                  matching.’’ A third commenter urged us                   Comment: One commenter suggested
                                             records. We caution, however, that the                  to consider a broader array of covered                that we define ‘‘equivalent technology’’
                                             donation of items or services, including                technologies, provided that they support              for purposes of the condition in the safe


                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00016   Fmt 4701   Sfmt 4700   E:\FR\FM\27DER2.SGM   27DER2
                                                              Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations                                         79217

                                             harbor that the donor of electronic                     policy to preclude safe harbor                        item or service donated is: (1) In the
                                             health record technology may not have                   protection in instances when the donor                form of software, information
                                             actual knowledge of, or act in reckless                 has actual knowledge of, or acts in                   technology and training services; and (2)
                                             disregard or deliberate ignorance of, the               reckless disregard or deliberate                      necessary and used predominantly to
                                             fact that the recipient possesses or has                ignorance of, the fact that the recipient             create, maintain, transmit, or receive
                                             obtained items or services equivalent to                possesses or has obtained equivalent                  electronic health records. As we stated
                                             those being donated. This commenter                     items or services. We expect physicians               in the 2006 Final Rule in response to a
                                             also suggested that we prohibit a                       would not select or continue to use a                 commenter’s recommendation that the
                                             provider or supplier from seeking or                    substandard system if it posed a threat               safe harbor specifically protect the
                                             accepting a donation before a certain                   to patient safety.                                    provision of patient portal software that
                                             period of time has elapsed since the                       Comment: One commenter referenced                  enables patients to maintain online
                                             receipt of a previous donation. Another                 the 2013 Proposed Rule’s statement that               personal medical records, including
                                             commenter urged us to eliminate                         ‘‘software or information technology                  scheduling functions (71 FR 45110,
                                             maintenance and service agreements                      and training services necessary and                   45125 (Aug. 8, 2006)), nothing in the
                                             from the scope of potentially protected                 used predominantly for electronic                     safe harbor precludes protection for
                                             donations under the safe harbor. In the                 health records purposes’’ included                    patient portal software if it satisfies all
                                             alternative, the commenter suggested                    ‘‘information services related to patient             of the safe harbor conditions.
                                             that we impose a restriction on the time                care (but not separate research or
                                                                                                     marketing support services.’’ 78 FR                   E. Comments Outside the Scope of
                                             period that donations of such services
                                                                                                     21314, 21319 (Apr. 10, 2013). The                     Rulemaking
                                             would be permitted. The commenter
                                             noted concerns that donors may use                      commenter requested that we retract                     In addition to some of the comments
                                             ongoing donations of maintenance and                    that statement and clarify that it is                 noted above, we received several
                                             service agreements to lock in referrals                 appropriate for health researchers to use             comments from stakeholders, including
                                             from recipients. A commenter that                       data in electronic health records for                 suggestions on policy changes, that are
                                             urged us not to extend the availability                 research that is related to, for example,             outside the scope of this rulemaking.
                                             of the safe harbor suggested that we                    evidence-based medicine, population                   For example, one commenter raised
                                             prohibit the donation of all technology                 management, or other research,                        concerns about a private insurer’s
                                             except interfaces for reporting of                      provided that the use complies with                   proposed fee schedule for laboratory
                                             laboratory results.                                     applicable Federal, State, and                        services. Another commenter expressed
                                                Response: Although we appreciate the                 institutional requirements.                           a concern about ‘‘outrageous bills’’ the
                                             commenters’ suggestions, we are not                        Response: We decline to retract our                commenter received from a laboratory
                                             making the requested changes. We                        statement in the 2013 Proposed Rule. To               company. While we appreciate the
                                             believe that the modifications to and                   promote adoption of electronic health                 commenters taking time to raise these
                                             clarifications of 42 CFR 1001.952(y)                    records while minimizing the risk of                  concerns, we will not be addressing
                                             adopted in this final rule and the                      abuse, the scope of items and services                them as they are outside the scope of
                                             clarifications offered in this preamble                 permitted to be donated under the safe                this rulemaking.
                                             address the concerns raised by these                    harbor is limited to items and services
                                                                                                                                                           III. Provisions of the Final Regulations
                                             commenters.                                             in the form of software and information
                                                Comment: One commenter asserted                      technology and training services that are                For the most part, this final rule
                                             that the prohibition on donating                        ‘‘necessary and used predominantly to                 incorporates the proposed revisions
                                             equivalent technology currently                         create, maintain, transmit, or receive                from the 2013 Proposed Rule.
                                             included in the safe harbor locks                       electronic health records.’’ Donations of             Specifically, we update the provision
                                             physician practices into a vendor, even                 software for research that is separate                under which electronic health records
                                             if they are dissatisfied with the                       from clinical support and information                 software is deemed interoperable by
                                             technology, because the recipient must                  services related to patient care are not              revising 42 CFR 1001.952(y)(2) to
                                             choose between paying the full amount                   consistent with the primary goals of the              remove the phrase ‘‘recognized by the
                                             for a new system and continuing to pay                  safe harbor.                                          Secretary’’ and replace it with the
                                             15 percent of the cost of the substandard                  The electronic health records safe                 phrase ‘‘authorized by the National
                                             system. The commenter asserts that the                  harbor addresses only the donation of                 Coordinator for Health Information
                                             cost difference between these two                       electronic health records items and                   Technology’’ and to replace the 12-
                                             options is too high and effectively locks               services, not the use of data. Thus, the              month time frame for certification of
                                             physician practices into electronic                     portion of the comment related to data                electronic health records software with
                                             health record technology vendors.                       use is outside the scope of this                      a requirement that the software be
                                                Response: Although we appreciate the                 rulemaking. We note, however, that                    certified to an edition of the electronic
                                             commenter’s concern, we continue to                     nothing in the safe harbor prohibits the              health record certification criteria
                                             believe that items and services are not                 use of data in electronic health record               identified in the then-applicable version
                                             ‘‘necessary’’ if the recipient already                  systems for research purposes (assuming               of 45 CFR part 170 (ONC’s certification
                                             possesses the equivalent items or                       the parties comply with all other                     program). Second, we remove from the
                                             services. 71 FR 45110, 45123 (Aug. 8,                   applicable laws, including HIPAA                      safe harbor the requirement at 42 CFR
                                             2006). As stated in the 2006 Final Rule,                privacy and security rules).                          1001.952(y)(10) related to electronic
                                             ‘‘the provision of equivalent items and                    Comment: One commenter asked us                    prescribing capability. Third, we extend
                                             services poses a heightened risk of                     to confirm that patient portals are                   the sunset date of the safe harbor to
                                             abuse, [because] such arrangements                                                                            December 31, 2021 by modifying 42
sroberts on DSK5SPTVN1PROD with RULES




                                                                                                     within the scope of the technology
                                             potentially confer independent value on                 potentially protected by the safe harbor.             CFR 1001.952(y)(13). Fourth, we limit
                                             the recipient (i.e., the value of the                      Response: We are not certain what the              the scope of protected donors to exclude
                                             existing items and services that might be               commenter precisely means by ‘‘patient                laboratory companies. We are modifying
                                             put to other uses) unrelated to the need                portals.’’ Patient portals come in a                  42 CFR 1001.952(y)(1)(i) to effectuate
                                             for electronic health records                           variety of forms; the key to the safe                 this change. And fifth, we are clarifying
                                             technology.’’ Id. Thus, we retain our                   harbor analysis is whether the specific               the condition at 42 CFR 1001.952(y)(3)


                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00017   Fmt 4701   Sfmt 4700   E:\FR\FM\27DER2.SGM   27DER2
                                             79218            Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations

                                             that prohibits a donor from taking any                  V. Regulatory Impact Statement                        condition that prohibits a donor from
                                             action to limit or restrict the use,                       We have examined the impact of this                taking any action to limit or restrict the
                                             compatibility, or interoperability of the               final rule as required by Executive                   use, compatibility, or interoperability of
                                             donated items or services.                              Order 12866 on Regulatory Planning                    the items or services. Neither this final
                                                                                                     and Review (Sept. 30, 1993); Executive                rule nor the regulations it amends
                                             IV. Waiver of the Delay in the Effective
                                                                                                     Order 13563 on Improving Regulation                   requires any entity to donate electronic
                                             Date
                                                                                                     and Regulatory Review (Jan. 18, 2011);                health records items and services, but
                                                Ordinarily we provide a delay of at                                                                        we expect these changes to continue to
                                             least 30 days in the effective date of a                the Regulatory Flexibility Act (RFA)
                                                                                                     (Sept. 19, 1980, Pub. L. 96–354, codified             facilitate the adoption of electronic
                                             final rule after the date that the rule is                                                                    health record technology by eliminating
                                             issued. However, the 30-day delay in                    at 5 U.S.C. 601 et seq.); section 1102(b)
                                                                                                     of the Act; section 202 of the Unfunded               perceived barriers rather than by
                                             effective date can be waived if the rule                                                                      creating the primary means by which
                                             grants or recognizes an exemption or                    Mandates Reform Act of 1995 (Mar. 22,
                                                                                                                                                           this technology will be adopted.
                                             relieves a restriction. We believe that it              1995; Pub. L. 104–4); Executive Order
                                                                                                                                                              The summation of the economic
                                             is appropriate to waive the 30-day delay                13132 on Federalism (August 4, 1999);
                                                                                                                                                           impact analysis regarding the effects of
                                             in effective date for 42 CFR                            and the Congressional Review Act (5                   electronic health records in the
                                             1001.952(y)(13), which relieves a                       U.S.C. 804(2)).                                       ambulatory setting that is presented in
                                             restriction on donations of electronic                     Executive Orders 12866 and 13563
                                                                                                                                                           the 2006 Final Rule still pertains to this
                                             health records items and services.                      direct agencies to assess all costs and
                                                                                                                                                           final rule. 71 FR 45110 (Aug. 8, 2006).
                                             Specifically, this final rule amends 42                 benefits of available regulatory
                                                                                                                                                           However, since the 2006 Final Rule,
                                             CFR 1001.952(y)(13) to extend the                       alternatives and, if regulation is
                                                                                                                                                           several developments have occurred to
                                             sunset date of the existing safe harbor                 necessary, to select regulatory
                                                                                                                                                           make us conclude that it is no longer
                                             from December 31, 2013 to December                      approaches that maximize net benefits                 necessary to retain a requirement related
                                             31, 2021. Without a waiver of the                       (including potential economic,                        to electronic prescribing capability in
                                             requirement for a delayed effective date,               environmental, public health and safety               the electronic health records safe
                                             the entire safe harbor will expire on                   effects, distributive impacts, and                    harbor. These developments include the
                                             December 31, 2013 and will not be                       equity). A regulatory impact analysis                 passage of two laws encouraging
                                             available to protect any ongoing                        (RIA) must be prepared for major rules                adoption of electronic prescribing and
                                             donation arrangements or new                            with economically significant effects                 electronic health-records technology: (1)
                                             donations of electronic health records                  ($100 million or more in any 1 year). We              In 2008, Congress passed the Medicare
                                             items and services made after December                  believe this final rule does not reach the            Improvements for Patients and
                                             31, 2013. By waiving the 30-day delay                   economic threshold for being                          Providers Act of 2008 (MIPPA), Public
                                             in effective date, the safe harbor will not             considered economically significant and               Law 110–275; (2) in 2009, Congress
                                             expire, thereby allowing parties to                     thus is not considered a major rule. It is            passed the Health Information
                                             continue utilizing the safe harbor to                   not economically significant because it               Technology for Economic and Clinical
                                             protect donations of electronic health                  will not have a significant effect on                 Health (HITECH) Act, Title XIII of
                                             records items and services. We stress,                  program expenditures, and there are no                Division A and Title IV of Division B of
                                             however, that donations of electronic                   additional substantive costs to                       the American Recovery and
                                             health records items and services that                  implement the resulting provisions. The               Reinvestment Act of 2009 (ARRA),
                                             occur between January 1, 2014 and the                   rule modifies an existing safe harbor,                Public Law 111–5. In addition, there has
                                             effective date of the remaining                         and the modifications would not impose                been an increase over the past few years
                                             provisions of this final rule (March 27,                significant additional costs on those                 in the rate of electronic health record-
                                             2014) will need to comply with all the                  seeking to use the safe harbor. Further,              based electronic prescribing
                                             conditions of the existing safe harbor.                 the donation of electronic health records             capabilities. See, e.g., State Variation in
                                             The waiver of the 30-day delay in                       items or services and the use of the safe             E-Prescribing Trends in the United
                                             effective date simply serves to maintain                harbor to protect such donations are                  States—available at: http://
                                             the status quo until the rest of this final             entirely voluntary. In section II, we                 www.healthit.gov/sites/default/files/
                                             rule becomes effective.                                 provide a detailed discussion and                     us_e-prescribingtrends_
                                                The 30-day delay in effective date can               analysis of the alternatives considered               onc_brief_4_nov2012.pdf.
                                             also be waived if the agency finds for                  in this final rule, including those                      As discussed in more detail in the
                                             good cause that the delay is                            considered for extending the sunset date              preamble to the 2013 Proposed Rule,
                                             impracticable, unnecessary, or contrary                 of the electronic health records safe                 section 132 of MIPPA authorized an
                                             to the public interest, and the agency                  harbor, limiting the scope of protected               electronic prescribing incentive program
                                             incorporates a statement of the findings                donors, and tying the timeframe for the               (starting in 2009) for certain types of
                                             and reasons in the rule issued. We find                 deeming provision to ONC’s                            eligible professionals. The HITECH Act
                                             that it is unnecessary to provide a 30-                 certification program. Finally, we                    authorized CMS to establish the EHR
                                             day delay in effective date for 42 CFR                  received no public comments specific to               Incentive Programs for certain eligible
                                             1001.952(y)(13) because an earlier                      the RIA set forth in the 2013 Proposed                professionals, eligible hospitals, and
                                             effective date simply allows parties to                 Rule.                                                 critical access hospitals. Also, the
                                             continue making donations under the                        This final rule updates (1) the                    HITECH Act required that eligible
                                             existing electronic health records safe                 provision under which electronic health               professionals under the EHR Incentive
                                             harbor; it does not impose any new                      records software is deemed                            Programs demonstrate meaningful use
                                                                                                     interoperable; (2) removes the
sroberts on DSK5SPTVN1PROD with RULES




                                             requirements or restrictions on                                                                               of certified electronic health record
                                             potentially affected parties. Moreover,                 requirement related to electronic                     technology, including the use of
                                             we find that a 30-day delayed effective                 prescribing capability; (3) extends the               electronic prescribing. Specifically, the
                                             date for 42 CFR 1001.952(y)(13) is                      safe harbor’s sunset date to December                 final rule for Stage 2 EHR Incentive
                                             impracticable because it would cause                    31, 2021; (4) limits the scope of                     Programs (77 FR 53968 (Sept. 4, 2012))
                                             the entire safe harbor to expire, thereby               protected donors to exclude laboratory                includes more demanding requirements
                                             nullifying this final rule.                             companies; and (5) clarifies the                      for electronic prescribing and identifies


                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00018   Fmt 4701   Sfmt 4700   E:\FR\FM\27DER2.SGM   27DER2
                                                              Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations                                           79219

                                             electronic prescribing as a required core               of a small entity. The Secretary has                  VI. Paperwork Reduction Act
                                             measure. As a result, beginning in                      determined that this final rule would
                                                                                                                                                             The provisions in this final rule will
                                             calendar year 2015, an eligible                         not have a significant economic impact
                                                                                                                                                           not impose any new or revised
                                             professional risks a reduction in the                   on a substantial number of small
                                                                                                                                                           information collection, recordkeeping,
                                             Medicare Physician Fee Schedule                         entities. Therefore, the undersigned
                                                                                                                                                           or disclosure requirements.
                                             payment amount that will otherwise                      certifies that this rule will not have a
                                             apply for covered professional services                                                                       Consequently, this rule does not need
                                                                                                     significant economic impact on a
                                             if they are not a meaningful electronic                                                                       additional Office of Management and
                                                                                                     substantial number of small entities.
                                             health record technology user for a                                                                           Budget review under the authority of
                                                                                                        In addition, section 1102(b) of the Act            the Paperwork Reduction Act of 1995.
                                             reporting period during that year. Our                  requires us to prepare a regulatory
                                             intent is to withhold safe harbor                       impact analysis if a rule may have a                  List of Subjects in 42 CFR Part 1001
                                             protection from the donation of items or                significant impact on the operations of
                                             services that a potential recipient                                                                             Administrative practice and
                                                                                                     a substantial number of small rural                   procedure, Fraud, Grant programs—
                                             already owns, while protecting donation                 hospitals. This analysis must conform to
                                             of items and services that advance the                                                                        health, Health facilities, Health
                                                                                                     the provisions of section 604 of the                  professions, Maternal and child health,
                                             adoption and use of electronic health                   RFA. For purposes of section 1102(b) of
                                             records. Lastly, according to ONC,                                                                            Medicaid, Medicare, Social Security.
                                                                                                     the Act, CMS defines a small rural
                                             electronic prescribing by physicians                    hospital as a hospital that is located                  Accordingly, 42 CFR part 1001 is
                                             using electronic health record                          outside of a Metropolitan Statistical                 amended as set forth below:
                                             technology has increased from 7 percent                 Area for Medicare payment regulations
                                             in December 2008 to approximately 48                                                                          PART 1001—[AMENDED]
                                                                                                     and has fewer than 100 beds. The
                                             percent in June 2012. Furthermore, the                  Secretary has determined that this final
                                             rules recently published to implement                                                                         ■ 1. The authority citation for part 1001
                                                                                                     rule would not have a significant                     continues to read as follows:
                                             Stage 2 of the EHR Incentive Programs                   economic impact on the operations of a
                                             continue to encourage physicians’ use of                substantial number of small rural                       Authority: 42 U.S.C. 1302, 1320a–7,
                                             electronic prescribing technology. See                  hospitals.                                            1320a–7b, 1395u(j), 1395u(k), 1395w–
                                             77 FR 53968, 53989 (Sept. 4, 2012); 77                                                                        104(e)(6), 1395y(d), 1395y(e),
                                                                                                        Title II of the Unfunded Mandates                  1395cc(b)(2)(D), (E) and (F), and 1395hh; and
                                             FR 54163, 54198 (Sept. 4, 2012).                        Reform Act of 1995 (UMRA) (codified at
                                             However, due to data limitations, we are                                                                      sec. 2455, Pub. L. 103–355, 108 Stat. 3327 (31
                                                                                                     2 U.S.C. 1531–1538) establishes                       U.S.C. 6101 note).
                                             unable to accurately estimate how much
                                                                                                     requirements for Federal agencies to
                                             the electronic health records safe harbor                                                                     ■ 2. Section 1001.952 is amended by
                                                                                                     assess the effects of their regulatory
                                             has contributed to the increase in                                                                            revising paragraphs (y)(1)(i), (y)(2),
                                                                                                     actions on State, local, and tribal
                                             electronic prescribing. We believe, as a                                                                      (y)(3), and (y)(13), and removing and
                                                                                                     governments and the private sector.
                                             result of these legislative and regulatory                                                                    reserving paragraph (y)(10), to read as
                                                                                                     Under UMRA, agencies must assess a
                                             developments advancing in parallel, the                                                                       follows:
                                                                                                     rule’s anticipated costs and benefits
                                             increase in the adoption of electronic
                                                                                                     before issuing any rule that may result
                                             prescribing using electronic health                                                                           § 1001.952   Exceptions.
                                                                                                     in aggregate costs to State, local, or
                                             record technology will continue without                                                                       *      *    *      *     *
                                                                                                     tribal governments, or the private sector,
                                             making it necessary to retain the                                                                                (y) * * *
                                             electronic prescribing capability                       of greater than $100 million in 1995
                                                                                                     dollars (currently adjusted to $141                      (1) * * *
                                             requirement in the electronic health                                                                             (i) An individual or entity, other than
                                             records safe harbor.                                    million). This final rule imposes no
                                                                                                     mandates and, as a result, will have no               a laboratory company, that provides
                                                The RFA generally requires an agency
                                                                                                     consequential effect on State, local, or              services covered by a Federal health
                                             to conduct a regulatory flexibility
                                                                                                     tribal government or on the private                   care program and submits claims or
                                             analysis of any rule subject to notice
                                             and comment rulemaking requirements                     sector of $141 million or more.                       requests for payment, either directly or
                                             unless the agency certifies that the rule                  Executive Order 13132 establishes                  through reassignment, to the Federal
                                             will not have a significant economic                    certain requirements that an agency                   health care program; or
                                             impact on a substantial number of small                 must meet when it issues a final rule                 *      *    *      *     *
                                             entities. For purposes of the RFA, small                that imposes substantial direct                          (2) The software is interoperable at
                                             entities include small businesses,                      requirement costs on State and local                  the time it is provided to the recipient.
                                             certain non-profit organizations, and                   governments, preempts State law, or                   For purposes of this subparagraph,
                                             small governmental jurisdictions. Most                  otherwise has Federalism implications.                software is deemed to be interoperable
                                             hospitals and most other providers and                  For the reasons stated earlier, this final            if, on the date it is provided to the
                                             suppliers are small entities, either by                 rule will not have a substantial effect on            recipient, it has been certified by a
                                             nonprofit status or by having revenues                  State or local governments, nor does it               certifying body authorized by the
                                             below specific limits that range from                   preempt State law or have Federalism                  National Coordinator for Health
                                             $7.0 million to $35.5 million                           implications.                                         Information Technology to an edition of
                                             (depending on the type of entity in                        In accordance with Executive Order                 the electronic health record certification
                                             question) in any 1 year. Individuals and                12866, this final rule was reviewed by                criteria identified in the then-applicable
                                             States are not included in the definition               the Office of Management and Budget.                  version of 45 CFR part 170.
sroberts on DSK5SPTVN1PROD with RULES




                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00019   Fmt 4701   Sfmt 4700   E:\FR\FM\27DER2.SGM   27DER2
                                             79220            Federal Register / Vol. 78, No. 249 / Friday, December 27, 2013 / Rules and Regulations

                                               (3) The donor (or any person on the                     (10) [Reserved]                                       Dated: September 10, 2013.
                                             donor’s behalf) does not take any action                *     *    *     *     *                              Daniel R. Levinson,
                                             to limit or restrict the use, compatibility,                                                                  Inspector General.
                                             or interoperability of the items or                       (13) The transfer of the items and
                                                                                                                                                             Approved: November 14, 2013.
                                             services with other electronic                          services occurs, and all conditions in
                                                                                                     this paragraph (y) have been satisfied,               Kathleen Sebelius,
                                             prescribing or electronic health records
                                                                                                     on or before December 31, 2021.                       Secretary.
                                             systems (including, but not limited to,
                                                                                                                                                           [FR Doc. 2013–30924 Filed 12–23–13; 4:15 pm]
                                             health information technology                           *     *    *     *     *
                                                                                                                                                           BILLING CODE 4152–01–P
                                             applications, products, or services).
                                             *     *      *     *     *
sroberts on DSK5SPTVN1PROD with RULES




                                        VerDate Mar<15>2010   00:10 Dec 27, 2013   Jkt 232001   PO 00000   Frm 00020   Fmt 4701   Sfmt 9990   E:\FR\FM\27DER2.SGM   27DER2
